App. 1

No. 19-5201

September Term, 2019
1:16-cv-01868-RC
Filed On: January 16, 2020

Jack Jordan,
Appellant
v.
United States Department of Labor,
Appellee

BEFORE:

Henderson, Srinivasan, and Katsas, Circuit Judges
ORDER

Upon consideration of the motion to compel the district court to include the
Powers email in the record and forward it to this court, the response thereto, and the
reply; the motion for a ruling in appellant’s favor on the motion to compel; the motion for
summary reversal, the response thereto, and the reply; and the motion for summary
affirmance and the response thereto, it is
ORDERED that the motion to compel the district court to include the Powers
email in the record and forward it to this court and the motion for a ruling in appellant’s
favor on that motion be denied. Each of appellant’s substantive arguments was either
considered and rejected by this court in a related appeal, or could have been raised in
that appeal. See No. 18-5128, Jordan v. Dep’t of Labor (D.C. Cir. Oct. 19, 2018);
LaShawn A. v. Barry, 87 F.3d 1389, 1393 (D.C. Cir. 1996) (“When there are multiple
appeals taken in the course of a single piece of litigation, law-of-the-case doctrine holds
that decisions rendered on the first appeal should not be revisited on later trips to the
appellate court.”); id. at 1395 n.7 (“If a party fails to raise a point he could have raised in
the first appeal, the ‘waiver variant’ of the law-of-the-case doctrine generally precludes
the court from considering the point in the next appeal of the same case.”). Moreover,
for the reasons discussed below, appellant has not shown that he is entitled to
disclosure of the Powers email. It is
FURTHER ORDERED that the motion for summary reversal be denied and the
motion for summary affirmance be granted. The merits of the parties’ positions are so
clear as to warrant summary action. See Taxpayers Watchdog, Inc. v. Stanley, 819
F.2d 294, 297 (D.C. Cir. 1987) (per curiam). The district court did not abuse its
discretion in denying appellant’s motion for relief from the judgment under Federal Rule

App. 2

FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 19-5201

September Term, 2019

of Civil Procedure 60. See People for the Ethical Treatment of Animals v. U.S. Dep’t of
Health & Human Services, 901 F.3d 343, 355 (D.C. Cir. 2018). Appellant has not
presented any newly discovered evidence that would affect the outcome of this case,
shown that the judgment under review is void or that it would be inequitable to enforce
the judgment, or shown any misconduct, fraud, or other grounds for relief under
Rule 60.
Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk
is directed to withhold issuance of the mandate herein until seven days after resolution
of any timely petition for rehearing or petition for rehearing en banc. See Fed. R. App.
P. 41(b); D.C. Cir. Rule 41.
Per Curiam

Page 2

App. 3
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
JACK JORDAN,
Plaintiff,
v.
U.S. DEPARTMENT OF LABOR,
Defendant.

:
:
:
:
:
:
:
:
:

Civil Action No.:

16-CV-1868 (RC)

Re Document No.:

67

MEMORANDUM OPINION
DENYING PLAINTIFF’S MOTION FOR RELIEF FROM JUDGMENT
I. INTRODUCTION
This Freedom of Information Act (“FOIA”) matter comes before the Court on Plaintiff
Jack Jordan’s (“Mr. Jordan’s”) motion for relief from judgment. Mr. Jordan previously
submitted FOIA requests with the United States Department of Labor’s (“DOL’s”) Office of
Administrative Law Judges, seeking unredacted versions of two emails related to a lawsuit in
which Mr. Jordan represented his wife, Maria Jordan, against DynCorp International, Inc.
(“DynCorp”). In a prior opinion, this Court granted summary judgment to DOL in part,
upholding DOL’s withholding of one email (the “Powers email”) as protected by the attorney
client privilege but ordering the production of the second email (the “Huber email”) to Mr.
Jordan. Mr. Jordan now seeks relief from the Court’s grant of summary judgment regarding the
Powers email pursuant to Federal Rule of Civil Procedure 60. Because Mr. Jordan fails to meet
the standards set forth in Rule 60, the Court denies the motion.

App. 4
II. FACTUAL BACKGROUND
The Court presumes familiarity with its prior opinions, see Jordan v. U.S. Dep’t of Labor
(“Jordan I”), 273 F. Supp. 3d 214 (D.D.C. 2017); Jordan v. U.S. Dep’t of Labor (“Jordan II”),
308 F. Supp. 3d 24 (D.D.C. 2018), and only briefly summarizes the facts relevant to the present
motion.
Mr. Jordan, an attorney, represented his wife in a 2016 Defense Base Act case against
DynCorp before DOL. Jordan I, 273 F. Supp. 3d at 219. Mr. Jordan submitted a number of
FOIA requests to DOL regarding the case, seeking, inter alia, the disclosure of emails forwarded
to a DOL Administrative Law Judge by DynCorp. See id. at 219–20. In response, DOL
disclosed redacted versions of the Huber and Powers emails but refused to produce unredacted
versions, which it contended were protected by the attorney-client privilege. See id. at 220–21.
Mr. Jordan commenced litigation in this Court in September 2016, seeking “[i]njunctive relief
ordering the DOL to disclose to [Mr. Jordan] all previously undisclosed versions of the
[DynCorp] [e]mails.” Compl. at 10–11, ECF No. 1; Pl.’s Unopposed Mot. Leave Amend.
Compl., ECF No. 19. Both Mr. Jordan and the DOL moved for summary judgment on the issue
of whether the Powers and Huber emails were protected by the attorney-client privilege. See
Jordan I, 273 F. Supp. 3d at 224.
After conducting an in camera inspection of the two emails, this Court granted summary
judgment in part to DOL, determining that the Powers email was privileged and properly
withheld, but that DOL had not sufficiently justified the basis for withholding the Huber email.
Id. at 227. The Court noted that the Powers email, unlike the Huber email, was labelled “subject
to attorney-client privilege” and contained an explicit request for legal advice. Id. And it found
that DOL had released all reasonably segregable portions of the Powers email. Id. at 235. In a

2

App. 5
later opinion denying the DOL’s renewed motion for summary judgment, the Court found that
the Huber email was not covered by attorney-client privilege and ordered the disclosure of that
document. Jordan II, 308 F. Supp. 3d at 44. The Court also denied Mr. Jordan’s motion for
reconsideration of its determination that the Powers email was protected by the attorney-client
privilege. See id. at 38–39.
Mr. Jordan then appealed this Court’s holding regarding the Powers email to the D.C.
Circuit. Pl.’s Notice of Appeal, ECF No. 62. The D.C. Circuit summarily affirmed, holding that
this Court “did not err” in concluding that the Powers email was exempt from disclosure. Jordan
v. U.S. Dep’t of Labor (“Jordan III”), No. 18-5128, 2018 WL 5819393 at *1 (D.C. Cir. Oct. 19,
2018). Moreover, the Circuit held that “[t]o the extent [Mr. Jordan] s[ought] disclosure of the
parts of the Powers email that read ‘attorney-client privilege’ and seek an explicit request for
legal advice, the district court did not err in declining to require disclosure of such disjointed
words.” Id. at *2.
Mr. Jordan has now filed a motion for relief from judgment, asking this Court to set aside
its prior ruling and to hold that the Powers email is not protected by attorney-client privilege.
Pl.’s Mot. Relief J. 10, ECF No. 67.
III. LEGAL STANDARDS
“Rule 60(b) provides a mechanism for relief from a judgment or order by permitting the
court to relieve a party or its legal representative from a final judgment, order, or proceeding[.]”
Oladokun v. Corr. Treatment Facility, 309 F.R.D. 94, 97 (D.D.C. 2015). The burden falls to the
party seeking relief to “[show] that he or she is entitled to relief.” Id.; see also Green v. AFLCIO, 287 F.R.D. 107, 109 (D.D.C. 2012). The final decision to grant or deny a Rule 60(b)
motion is “committed to the discretion of the District Court,” United Mine Workers 1974

3

App. 6
Pension v. Pittston Co., 984 F.2d 469, 476 (D.C. Cir. 1993), which “balance[s] the interest in
justice with the interest in protecting the finality of judgments,” Summers v. Howard Univ., 374
F.3d 1188, 1193 (D.C. Cir. 2004). The movant “must provide the district court with reason to
believe that vacating the judgment will not be an empty exercise or a futile gesture.” Murray v.
District of Columbia, 52 F.3d 353, 355 (D.C. Cir. 1995).
IV. ANALYSIS
Mr. Jordan asserts that relief from the Court’s judgment is warranted under Rules 60(a),
60(b)(2), 60(b)(3), 60(d)(3), 60(b)(4), 60(b)(5), and 60(b)(6). This Court reviews in turn Mr.
Jordan’s arguments as to Rules 60(a) and 60(b)(1); Rule 60(b)(2); Rules 60(b)(3) and 60(d)(3);
Rule 60(b)(4); Rule 60(b)(5); and Rule 60(b)(6). Because it concludes that Mr. Jordan’s
contentions are without merit, the Court denies the motion.
A. Mr. Jordan Is Not Entitled to Relief Under Rule 60(a) or Rule 60(b)(1)
Mr. Jordan asserts that relief is warranted under Rule 60(a) because this Court mistakenly
found the Powers email to contain an express request for legal advice. Pl.’s Mot. Relief 29. He
argues that the Court’s finding was “contrary to all potentially relevant evidence,” because “no
evidence even indicated that Powers email was sent to obtain any legal advice or services, and
copious evidence indicated that it was not sent to any recipient for any such purpose.” Pl.’s Mot.
Relief 20. Mr. Jordan further contends that the Court is mistaken about the holding of the D.C.
Circuit, which he believes explained that this Court incorrectly found the Powers email to be
privileged. Id. The Court first briefly reviews why relief under Rule 60(a) is unwarranted, and
then addresses whether Jordan’s arguments warrant relief under Rule 60(b)(1). The Court finds
that they do not.

4

App. 7
Rule 60(a) allows a court to correct a “clerical mistake or a mistake arising from
oversight or omission.” Fed. R. Civ. P 60(a). This rule is narrowly construed and may not be
invoked to “change the substance or order of a judgment.” Fanning v. George Jones Excavating,
L.L.C., 312 F.R.D. 238, 239 (D.D.C. 2015). It only applies when “the record indicates that the
court intended to do one thing, but by virtue of a clerical mistake or oversight, did another.” Id.
(quoting 12 Moore’s Federal Practice § 60.11(1)(a) (3d. ed. 2015)). Unless something in the
record suggests that the court “intended to enter the parties’ proposed judgment but accidently
forgot to do so,” the substance of a court order or judgment will be considered a “conscious
decision.” Id. Here, Mr. Jordan has failed to present any evidence to suggest that this Court
made a clerical error, oversight, or omission. His contention that this Court’s holding was in
error, even if true, would be an error of “substance, not expression,” putting it outside the scope
of Rule 60(a). Fanning, 312 F.R.D. at 239. Because Rule 60(a) motions are only proper to
correct clerical errors, and Mr. Jordan points to none, the Court denies the motion for relief from
judgment on that ground.
However, Mr. Jordan’s assertions would have been properly raised under Rule 60(b)(1),
so this Court will address them as such. Rule 60(b)(1) motions permit the court to grant relief
from a final judgment upon a finding of mistake, inadvertence, surprise, or excusable neglect.
Federal courts are split over whether parties may use Rule 60(b) motions to address alleged
mistakes of legal reasoning, and the D.C. Circuit “allows Rule 60(b) motions to challenge legal
errors only in the most extreme situations: namely, when the district court based its legal
reasoning on case law that it had failed to realize had been overturned.” Ward v. Kennard, 200
F.R.D. 137, 139 (D.D.C. 2001) (citing D.C. Fed’n of Civic Ass’ns v. Volpe, 520 F.2d 451, 451–
53 (D.C. Cir. 1975)); see also Elec. Privacy Info. Ctr. v. U.S. Dep’t of Homeland Sec., 811 F.

5

App. 8
Supp. 2d 216, 227 (D.D.C. 2011) (noting that district courts are only permitted to “provide relief
upon reconsideration of a final judgment in circumstances where there has been a change in the
controlling law since the issuance of the final judgment”).
Mr. Jordan’s motion fares no better under Rule 60(b)(1) because his arguments rest on an
inaccurate reading of the order issued by the D.C. Circuit. See Jordan III, 2018 WL 5819393 at
*1. Mr. Jordan asserts that the Circuit “conclusively established” that the Powers email did not
contain any explicit request for legal advice, but rather that “any purported ‘explicit request for
legal advice’ amounted (at most) to ‘disjointed words that have ‘minimal or no information
content.’” Pl.’s Mot. Relief 10 (quoting Jordan III, 2018 WL 5819393 at *1).
This is not what the Circuit held. The Circuit made clear that “[t]o the extent [Mr.
Jordan] seeks disclosure of the parts of the Powers email that read ‘attorney client privilege’ and
seek an explicit request for legal advice, the district court did not err in declining to require
disclosure of such disjointed words that have ‘minimal or no information content.’” Jordan III,
2018 WL 5819393 at *1 (quoting Mead Data Central, Inc. v. U.S. Dep’t of Air Force, 566 F.2d
242, 261 n.55 (D.C. Cir. 1977)). The Circuit did not find that the request for privilege consisted
of disjointed words without information content, but rather held that disclosing the parts of the
email that demonstrate its privileged nature would constitute the disclosure of disjointed words
without information content. Id. Because Mr. Jordan does not meet the standard set forth by
Rule 60(b)(1), his motion for relief on that ground is denied.
B. Mr. Jordan Is Not Entitled to Relief Under 60(b)(2)
Mr. Jordan next argues that he is entitled to relief under Rule 60(b)(2) because newly
discovered evidence has emerged, in the form of both the Huber email and the D.C. Circuit

6

App. 9
Court’s alleged holding that the Powers email was not subject to attorney client privilege. Pl.’s
Mot. Relief 21. This argument is unpersuasive as well.
Rule 60(b)(2) allows a court to grant relief from a final judgment upon a finding of
“newly discovered evidence that, with reasonable diligence, could not have been discovered in
time to move for a new trial under Rule 59(b)[.]” Fed. R. Civ. P. 60(b)(2). In order to obtain
relief from a final judgment under that rule, the moving party must demonstrate that “(1) the
newly discovered evidence is of facts that existed at the time of the trial or merits proceeding; (2)
the party seeking relief was ‘justifiably ignorant of the evidence despite due diligence’; (3) the
evidence is admissible and is ‘of such importance that it probably would have changed the
outcome’; and (4) the evidence is not merely cumulative or impeaching.” Almerfedi v. Obama,
904 F. Supp. 2d 1, 3 (D.D.C. 2012) (quoting Duckworth v. United States, 808 F. Supp. 2d 2010,
210, 216 (D.D.C. 2011)).
Mr. Jordan’s argument that the contents of the Huber email constitute newly discovered
evidence fails both the second and the third part of the test under Rule 60(b)(2). The Huber email cannot be newly discovered evidence because the Court considered it during the life of the
case; it was not disclosed afterwards. And in any event, as the moving party, Mr. Jordan bears
the burden of proving that “the proffered evidence is ‘of such a material and controlling nature as
will probably change the outcome.’” Epps v. Howes, 573 F. Supp. 2d 180, 185 (D.D.C. 2008)
(quoting In re Korean Airlines, 156 F.R.D. 18, 22 (D.D.C. 1994)). Here, there is no basis for the
Court to find that the Huber email would have altered its findings as to the Powers email. This
Court previously conducted an in camera review of both the Huber and Powers emails, and
found nothing to indicate that the Huber email would change its determination regarding the
Powers email.

7

App. 10
Further, Mr. Jordan’s assertion that the Court of Appeals “confirm[ed] that Powers’ email
does not [sic] any request for legal advice,” Pl.’s Mot. Relief 21, is an inaccurate representation
of the D.C. Circuit’s holding, which does not actually support his position. As discussed above,
the Circuit found that this Court was correct in its determination that the “Powers email is
exempt from disclosure pursuant to 5 U.S.C. § 552(b)(4)” and that “the Powers email contains an
explicit request for legal advice.” Jordan III, 2018 WL 5819393 at *1; see supra Part IV.A.
Even assuming that the D.C. Circuit’s decision could be considered newly discovered evidence, 1
it would not change the outcome regarding the Powers email. Accordingly, Mr. Jordan’s motion
for relief from judgment pursuant to Rule 60(b)(2) is denied.
C. Mr. Jordan Is Not Entitled to Relief Under Rule 60(b)(3) or 60(d) (3)
Mr. Jordan claims that relief is warranted under Rules 60(b)(3) and 60(d)(3) because
government attorneys in this case knowingly made false statements of material facts or law to
this Court and failed to correct those false statements in order to sway the Court to grant
summary judgment. Pl.’s Mot. Relief 22. Mr. Jordan further asserts that this Court was “lured”
into assisting those attorneys in their fraud, helping them to deprive Mr. Jordan of his rights and
to commit a fraud on the D.C. Circuit. Id. at 24. The core of these alleged falsehoods appears to
hinge on Mr. Jordan’s belief that the government—and this court—knew that neither the Huber
nor the Powers emails were privileged and engaged in a concerted fraudulent effort to conceal

1

A legal opinion “is law, not evidence.” See, e.g., Peterson v. Flagstar Bank, FSB, No.
PWG-16-2617, 2017 WL 1020821, at *3 (D. Md. Mar. 15, 2017). Therefore, a subsequent legal
opinion cannot be new evidence sufficient to support a claim in a Rule 60(b)(2) motion. In
addition, newly discovered evidence “must have been in existence at the time of the disputed
judgment.” Int’l Ctr. for Tech. Assessment v. Leavitt, 468 F. Supp. 2d 200, 206 (D.D.C. 2007).
Thus, a subsequent appellate judgment by its very nature cannot be newly discovered evidence.
8

App. 11
the truth. Id. at 22–24. Because Mr. Jordan does not in any way substantiate this argument, he is
not entitled to relief.
Rule 60(b)(3) allows a court to set aside or grant relief from a final judgment for fraud,
misrepresentation, or misconduct by an opposing party. The burden falls on the party seeking
relief to “prove such fraud or misrepresentation with ‘clear and convincing evidence.’” People
for the Ethical Treatment of Animals v. HHS, 226 F. Supp. 3d 39, 55 (D.D.C. 2017) (quoting
Shepherd v. Am. Broad. Companies, Inc., 62 F.3d 1469, 1477 (D.C. Cir. 1995)). Furthermore,
Rule 60(b)(3) motions will only be granted if the moving party can “show actual prejudice, that
is, he must demonstrate that the defendant’s conduct prevented him from presenting his case
fully and fairly.” Ramirez v. DOJ, 680 F. Supp. 2d 208, 210 (D.D.C. 2010); see also Walsh v.
Hagee, 10 F. Supp. 3d 15, 19 (D.D.C. 2013). The moving party needs to do more than simply
present allegations of fraud, it must present evidence of actual fraud that “prevented it from
presenting its own case.” People for the Ethical Treatment of Animals, 226 F. Supp. 3d at 56–
57; see also Am. Cetacean Soc. v. Smart, 673 F. Supp. 1102, 1105 (D.D.C. 1987).
Rule 60(d)(3), which lays out a court’s power to grant relief when there has been fraud on
the court, see Fed. R. Civ. P. 60(d)(3), is much more limited in scope than Rule 60(b)(3), and
only applicable in “very unusual cases.” Lane v. Fed. Bureau of Prisons, 285 F. Supp. 3d 246,
248–49 (D.D.C. 2018). Fraud on the court is more than mere “fraud between the parties or
fraudulent documents, false statements or perjury;” it must be “directed to the judicial machinery
itself.” Id. Accordingly, relief under 60(d)(3) is “rarely warranted, and is ‘typically confined to
the most egregious cases, such as bribery of a judge or juror, or improper influence exerted on
the court by an attorney, in which the integrity of the court and its ability to function impartially

9

App. 12
is directly impinged.’” More v. Lew, 34 F. Supp. 3d 23, 28 (D.D.C. 2014) (quoting Great
Coastal Express, Inc. v. Int’l Bhd. Of Teamsters, 675 F.2d 1349, 1356 (4th Cir. 1982)).
Mr. Jordan has failed to present any evidence of fraud, either by the government or by the
Court. Mr. Jordan argues that DOL and DOJ employees “violated their oaths, statutes,
regulations, and rules of conduct.” Pl.’s Mot. Relief 21. He further argues that these same DOJ
and DOL employees actively sought to mislead this Court by certifying that both the Huber and
the Powers emails contained explicit requests for legal advice, when they knew the opposite to
be true. Id. at 1–8. He asserts that the Court in turn knowingly and willingly assisted them in
their endeavors by granting summary judgment as to the Powers email and giving the
government another shot at summary judgment on the Huber email in its 2017 opinion. Id. And
he argues that the government continued its fraudulent conduct before the D.C. Circuit, where it
misrepresented the facts and the law of the case. Id. at 9–10.
None of Mr. Jordan’s arguments, all of which are based on words taken out of context
from government briefs, declarations, and this Court’s prior opinions, are backed by evidence of
fraud. As to the Powers email, as discussed above, the D.C. Circuit explicitly held that the email
was a protected request for legal advice. Jordan III, 2018 WL 5819393 at *1–2; see supra Part
IV.A. Mr. Jordan appears to be attempting to relitigate the privilege issue, and it has long been
the rule in this Circuit that “a motion for relief from judgment on the ground of misrepresentation
will be denied if it is merely an attempt to relitigate the case[.]” Am. Cetacean Soc. V. Smart,
673 F. Supp. 1102, 1105 (D.D.C. 1987). As to the Huber email—and more generally—Mr.
Jordan cannot establish fraud by simply pointing to arguments government counsel made in their
briefs and that the Court rejected, or to contentions that turned out to be inaccurate. There is
nothing to suggest that government counsel’s representations to the Court were not made in good

10

App. 13
faith. Finally, Mr. Jordan must show actual prejudice in order to prevail, and it is clear that
nothing he alleges prejudiced him because the Powers email is privileged, as independently
determined by the Court’s in camera review.
By that same measure, Mr. Jordan has entirely failed to establish fraud upon the court
under Rule 60(d)(3). Mr. Jordan asserts that the government committed fraud upon this Court by
repeatedly and knowingly making false statements, and by luring the Court into assisting it in
committing said fraud. Pl.’s Mot. Relief 23–24. However, the basis for this argument is, once
again, Mr. Jordan’s assertion that government attorneys “knowingly misrepresented that the
emails were privileged” and that the Court was aware of that misrepresentation. Id. at 2–4. As
discussed above, not only does Mr. Jordan fail to present any evidence of this supposed
wrongdoing, but the Circuit explicitly held that the Powers email was exempt from disclosure
and that there was no judicial bias or error on the part of this Court. Jordan III, 2018 WL
5819393 at *1–2. Mr. Jordan cannot assert fraud or fraud on the court simply because he
disagrees with the rulings of this Court and of the D.C. Circuit. Because Mr. Jordan fails to meet
the standards established by Rules 60(b)(3) and 60(d)(3), his motion for relief on those grounds
is denied.
D. Mr. Jordan Is Not Entitled to Relief Under Rule 60(b)(4 )
Mr. Jordan asserts that he is entitled to relied under Rule 60(b)(4) because this Court
deprived him of his due process rights by failing to recuse itself, allegedly misrepresenting the
contents of the Powers email, improperly reviewing the Powers email in camera, and using its
“personal knowledge” about disputed material facts in reaching a decision. Pl.’s Mot. Relief 26–
27. He also contends that the judgment is void because this Court usurped powers it did not have
and assumed the role of party and witness. Id. at 24–25. Mr. Jordan’s arguments are meritless.

11

App. 14
Rule 60(b)(4) allows a court to provide relief from a final judgment when that judgment
is void. Fed. R. Civ. P. 60(b)(4). The Supreme Court has held that this rule applies “only in the
rare instance where a judgment is premised either on a certain type of jurisdictional error or on a
violation of due process that deprives a party of notice or the opportunity to be heard.” United
Student Aid Funds, Inc. v. Espinosa, 559 U.S. 260, 261 (2010). These defects are usually limited
to “defects in personal jurisdiction, subject matter jurisdiction, and due process.” U.S. v. Phillip
Morris USA Inc., 840 F.3d 844, 850 (D.C. Cir. 2016).
Mr. Jordan’s allegations run contrary to the findings of the Circuit, which found not only
that this Court did “not err in concluding that the Powers email is exempt from disclosure,” but
also that there was no “evidence of judicial bias, despite appellant’s accusations to the contrary.”
Jordan III, 2018 WL 5819393 at *1–2. The Circuit held that it was proper for the Court to
decline to “require disclosure of such disjointed words that have ‘minimal or no information
content.’” Id. at *2 (quoting Mead, 566 F.2d at 261 n.55). And it also found that this Court did
not “abuse its discretion in reviewing the emails in camera to determine the extent of §
552(b)(4)’s applicability.” Id. at *1.
Furthermore, Mr. Jordan does not provide any basis for his allegations that this Court
otherwise usurped its powers, aside from continuing to erroneously assert that the Powers email
was not protected by privilege and that this Court is refusing to abide by what he believes to be
the D.C. Circuit’s holding. Pl.’s Mot. Relief 25. Mr. Jordan has had ample opportunity to
litigate his case, and this particular issue, both before this Court and on appeal. Relief is
therefore not warranted under Rule 60(b)(4).

12

App. 15
E. Mr. Jordan Is Not Entitled to Relief Under Rule 60(b)(5 )
In support of his claim for relief under Rule 60(b)(5), Mr. Jordan asserts that it would no
longer be equitable for the judgment to be enforced against him. Pl.’s Mot. Relief 20. He
maintains that “no evidence even indicated that Powers’ email was sent to obtain any legal
advice or services, and copious evidence indicated that it was not sent to any recipient for any
such purpose.” Id. The Court disagrees.
Similarly to Rule 60(b)(4), Rule 60(b)(5) allows a court to relieve a party from a final
judgment when the judgment has been satisfied, reversed, discharged, or is no longer equitable.
Fed. R. Civ. P. 60(b)(5). While the equitable provision of Rule 60(b)(5) “may not be used to
challenge the legal conclusions on which a prior judgment or order rests,” it may still serve as “a
means by which a party can ask a court to modify or vacate a judgment or order if ‘a significant
change either in factual conditions or in law’ renders continued enforcement ‘detrimental to the
public interest.’” Horne v. Flores, 557 U.S. 433, 447 (2009) (quoting Rufo v. Inmates of Suffolk
Cty. Jail, 502 U.S. 367, 384 (1992)). The party who seeks relief under Rule 60(b)(5) “bears the
burden of establishing that changed circumstances warrant relief,” id., and must show that
applying the judgment prospectively is no longer equitable by proving a change in factual
conditions or the law, Salazar v. District of Columbia, 729 F. Supp. 2d 257, 263–64 (D.D.C.
2010).
But Mr. Jordan provides no evidence of any significant change in either law or factual
conditions, merely arguing, without support, that it would be inequitable to sustain the judgment.
Id. at 20. This argument once again appears to hinge on his belief that the Powers email is not
privileged, and that this Court and the D.C. Circuit are both mistaken. Id. Mr. Jordan thus fails
to meet the burden set forth by Rule 60(b)(5) by failing to assert, or provide any evidence for,

13

App. 16
actually changed circumstances that may “warrant revision” of the prior judgment. Brown, 312
F.R.D. at 243.
F. Mr. Jordan Is Not Entitled to Relief Under Rule 60(b)(6 )
Finally, Mr. Jordan contends that he is entitled to relief under Rule 60(b)(6). He argues
that there are extraordinary circumstances that demand relief as a matter of justice. Pl.’s Mot.
Relief 17, 36. The “extraordinary circumstances” that Mr. Jordan points to are his prior
allegations of judicial misconduct by the Court. Id. at 17. Mr. Jordan also points to his diligence
in seeking review of this Court’s prior decisions, both through appellate review and Rule 60(b)
relief, which he argues should be relevant in determining whether extraordinary circumstances
exist. Id. at 45. The Court is unconvinced.
Rule 60(b)(6) is a catch-all provision, providing that a court may relieve a party from a
final judgment for “any other reason that justifies relief” not encompassed by the other reasons
enumerated in Rule 60(b). Fed. R. Civ. P 60(b)(6). 60(b)(6) motions “should only be granted in
‘extraordinary circumstances’” in order to justify reopening a matter that would not merit
reconsideration under Rules 60(b)(1)–(5). Riley v. BMO Harris Bank, N.A., 115 F. Supp. 3d 87,
94 (D.D.C. 2015) (quoting Ackerman v. U.S., 340 U.S. 193, 199 (1950)).
Mr. Jordan fails to establish that this is an “extraordinary circumstance” sufficient to
justify relief under Rule 60(b)(6). Ackerman, 340 U.S. at 199. While Mr. Jordan is correct in
stating that his diligence in appealing and pursuing Rule 60(b) relief is “relevant in assessing
whether extraordinary circumstances are present,” Salazar v. District of Columbia, 633 F.3d
1110, 1119 (D.C. Cir. 2011); Pl.’s Mot. Relief 54, the significance of his diligent appeals and
post-judgment motions is far outweighed by the lack of adequate grounds for those very appeals
and motions. Mr. Jordan’s motion under Rule 60(b)(6) thus fails as well.

14

App. 17
V. CONCLUSION
For the foregoing reasons, Plaintiff’s motion for relief from judgment (ECF No. 67) is
DENIED. This case is over. Plaintiff may not file any further motions without first obtaining
leave of court. Leave will not be granted based on the same recycled arguments that Plaintiff has
repeatedly raised and this Court has repeatedly found to be meritless. Moreover, raising such
arguments again may be cause for an award of fees. An order consistent with this Memorandum
Opinion is separately and contemporaneously issued.
Dated: July 1, 2019

RUDOLPH CONTRERAS
United States District Judge

15

App. 18

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 19-5201

September Term, 2019
1:16-cv-01868-RC
Filed On: March 18, 2020

Jack Jordan,
Appellant
v.
United States Department of Labor,
Appellee
BEFORE:

Srinivasan, Chief Judge, and Henderson, Rogers, Tatel, Garland,
Griffith, Millett, Pillard, Wilkins, Katsas, and Rao, Circuit Judges
ORDER

Upon consideration of the motion to recall the mandate, the petition for rehearing
en banc, and the absence of a request by any member of the court for a vote, it is
ORDERED that the motion to recall the mandate be denied. The court’s
inherent authority to recall its mandate “can be exercised only in extraordinary
circumstances,” Calderon v. Thompson, 523 U.S. 538, 550 (1998), and appellant has
shown no such circumstances in this case. Appellant’s “Motion to Reconsider and
Reverse All Rulings” was properly construed as a petition for panel rehearing, and the
mandate was subsequently issued in accordance with this court’s January 16, 2020
order, which directed the Clerk to issue the mandate “seven days after resolution of any
timely petition for rehearing.” See Fed. R. App. P. 41(b) (“The court may shorten or
extend the time [to issue the mandate] by order.”). It is
FURTHER ORDERED that the petition be denied.
The Clerk is directed to accept no further submissions from appellant in this
closed case.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Daniel J. Reidy
Deputy Clerk

App. 19

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 18-5128

September Term, 2018
1:16-cv-01868-RC
Filed On: October 19, 2018

Jack Jordan,
Appellant
v.
United States Department of Labor,
Appellee

BEFORE:

Rogers, Srinivasan, and Wilkins, Circuit Judges
ORDER

Upon consideration of the motions regarding filing of the Powers email and
appellant’s opening brief, the supplement thereto, the oppositions, and the reply; and
the motion for summary affirmance, the opposition thereto, and the reply; and the
motion for an extension of time, it is
ORDERED that the motions regarding filing of the Powers email be denied. For
the reasons discussed below, the court will not compel the district court to file portions
of the Powers email. It is
FURTHER ORDERED that the unopposed motion for an extension of time to file
a reply to the motion for summary affirmance, construed as a motion to late-file the
reply, be granted. The Clerk is directed to file the lodged reply. It is
FURTHER ORDERED that the motion for summary affirmance be granted. The
merits of the parties’ positions are so clear as to warrant summary action. See
Taxpayers Watchdog, Inc. v. Stanley, 819 F.2d 294, 297 (D.C. Cir. 1987) (per curiam).
The district court did not err in concluding that the Powers email is exempt from
disclosure pursuant to 5 U.S.C. § 552(b)(4). Nor did the district court abuse its
discretion in reviewing the emails in camera to determine the extent of § 552(b)(4)’s
applicability. See ACLU v. U.S. Dep’t of Def., 628 F.3d 612, 626 (D.C. Cir. 2011);
5 U.S.C. § 552(a)(4)(B). Notwithstanding appellant’s speculation to the contrary, there
is no reason to doubt the district court’s finding that an in camera review revealed the
Powers email contains an explicit request for legal advice. Nor is there any evidence of

App. 20

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 18-5128

September Term, 2018

judicial bias, despite appellant’s accusations to the contrary. To the extent appellant
seeks disclosure of the parts of the Powers email that read “attorney-client privilege”
and seek an explicit request for legal advice, the district court did not err in declining to
require disclosure of such disjointed words that have “minimal or no information
content.” Mead Data Central, Inc. v. U.S. Dep’t of Air Force, 566 F.2d 242, 261 n.55
(D.C. Cir. 1977).
Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk
is directed to withhold issuance of the mandate herein until seven days after resolution
of any timely petition for rehearing or petition for rehearing en banc. See Fed. R. App.
P. 41(b); D.C. Cir. Rule 41.
Per Curiam

Page 2

App. 21
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
JACK JORDAN,

:
:
:
:
:
:
:
:
:
:

Plaintiff,
v.

U.S. DEPARTMENT OF LABOR,
Defendant.

Civil Action No.:

16-1868 (RC)

Re Document Nos.:

10, 16, 20, 24, 25,
29, 31, 33, 36

MEMORANDUM OPINION
GRANTING PLAINTIFF’S UNOPPOSED MOTION TO AMEND COMPLAINT; DENYING PLAINTIFF’S
CORRECTED MOTION FOR SUMMARY JUDGMENT; GRANTING IN PART AND DENYING IN PART
DEFENDANT’S CROSS-MOTION FOR SUMMARY JUDGMENT; DENYING PLAINTIFF’S FIRST
MOTION FOR SANCTIONS UNDER RULE 11; DENYING PLAINTIFF’S MOTION TO COMPEL
DEPOSITIONS OF TODD SMYTH AND DIANE JOHNSON; DENYING PLAINTIFF’S MOTION TO
STRIKE THE SMYTH DECLARATION; DENYING PLAINTIFF’S MOTION TO COMPEL PRODUCTION
OF EVIDENCE REGARDING SMYTH DECLARATION; DENYING PLAINTIFF’S MOTION TO STRIKE
PROHIBITED EX PARTE COMMUNICATION AND VACATE OCTOBER 26 MINUTE ORDER;
DENYING PLAINTIFF’S SECOND MOTION FOR SANCTIONS UNDER RULE 11; DENYING
PLAINTIFF’S MOTION REGARDING THE APA AS BASIS FOR DECISIONS
I. INTRODUCTION
Plaintiff Jack Jordan, an attorney, sued under the Freedom of Information Act (“FOIA”)
seeking documents related to FOIA requests he previously submitted to the Office of
Administrative Law Judges (“OALJ”), an agency within the United States Department of Labor
(“DOL”). Mr. Jordan requested the first two emails in a continuous string of five emails
(“DynCorp emails”) related to Defense Base Act Case No. 2015-LDA-00030 (“DBA
Proceedings”), a case in which Mr. Jordan is representing his wife, Maria Jordan, against
DynCorp International, Inc. (“DynCorp”).

App. 22
Mr. Jordan sought the disclosure of any emails, dated July 30 or July 31, 2013, with the
subject line “WPS – next steps & actions” that DynCorp’s counsel had forwarded to
Administrative Law Judge (“ALJ”) Larry S. Merck. The DOL denied this request insofar as it
related to unredacted copies of the first two emails, claiming that attorney–client privilege
applied to portions of the DynCorp emails, and provided Mr. Jordan a redacted copy of the
DynCorp emails in response to his initial FOIA request. Mr. Jordan sued to compel disclosure of
all previously undisclosed versions of the DynCorp emails associated with his initial request on
the grounds that the DOL had no legitimate basis for considering the DynCorp emails privileged
and exempt from disclosure. Having reviewed the record and the DynCorp emails in camera, the
Court agrees that one of the emails is privileged and thus exempt from disclosure, but orders the
DOL to either disclose the other email or provide further justification for its continued
withholding.
II. FACTUAL BACKGROUND
Over a period of seven months, Mr. Jordan filed five FOIA requests relating to the
DynCorp emails in an effort to obtain all previously undisclosed versions of the DynCorp emails.
See Compl. at 5 , ¶¶ 10–19, ECF No. 1. Although the first request is most relevant here—and the
final two requests have no relevance at all—the Court separately describes each of Mr. Jordan’s
five requests for the sake of completeness.
A. FOIA Request No. F2016-806591
On June 9, 2016, Mr. Jordan submitted his first FOIA request, which was for several
documents related to the DynCorp emails. See Answer, Ex. 4, 14–16, ECF No. 14-1.1 Mr. Jordan
1

The DOL’s Answer is located at ECF No. 14. Exhibits attached to the DOL’s answer
can be located at ECF No. 14-1.
2

App. 23
specifically requested (1) “a copy of any letter of transmittal, facsimile cover sheet or any other
evidence . . . identifying the person or party who forwarded to Judge Merck’s office (or to the
OALJ) any documentation related to . . . the claim for disability compensation that was filed . . .
by Maria Jordan,” see id. ¶ 1; (2) “a copy of any version (regardless of whether or not any
information was redacted) of certain emails that were forwarded to Judge Merck’s office at any
time in October through December 2015” dated “July 30 or 31, 2013[,] that had substantially the
following text in the subject line: ‘WPS – next steps & actions,’” see id. ¶ 2; and (3) “a copy of
any letter of transmittal, facsimile cover sheet or any other evidence dated at any time in October
through December 2015 identifying the person or party who forwarded to Judge Merck’s office
(or to the OALJ) any version of the [DynCorp] emails in #2, above,” see id. ¶ 3. The first
paragraph in Mr. Jordan’s request included a footnote clarifying that the particular request did
not “apply to the underlying documentation, e.g., any motion or opposition thereto that was
served by any party to the captioned case.” See id. at 15, n.1.
On June 28, 2016, the DOL partially released and partially withheld documents
responsive to Request No. 806591. Def.’s Cross-Mot. Summ. J. and Opp’n Pl.’s Corrected Mot.
for Summ. J. (“Def.’s Cross-Mot.”), Ex. 1, Attach. C, ECF No. 20-1.2 In response to Mr.
Jordan’s first request, Acting FOIA Coordinator Diane Johnson communicated that a “search of
the Administrative File in ALJ No. 2015-LDA-00030 was conducted” and revealed a “two page
letter dated November 20, 2015 from the law firm of Brown Sims addressed to District Chief
Judge Lee Romero in Covington, Louisiana” and forwarded to ALJ Merck. Id. at 21. Per
footnote 1 of Mr. Jordan’s request, the DOL enclosed the letter but did not include “the motion
itself or the attachments to the motion.” Id. at 21, n.2.

2

All attachments to Def.’s Cross-Mot., Ex. 1 can be found at ECF No. 20-1.
3

App. 24
In response to Mr. Jordan’s second request, Ms. Johnson explained that ALJ Merck
“reviewed [the DynCorp emails] in camera and determined that they contained privileged
attorney–client communications.” Id. at 22. Due to ALJ Merck’s finding that “the unredacted
versions of the requested documents [were] protected from discovery by attorney–client
privilege,” Ms. Johnson determined that FOIA Exemption 4, which protects “trade secrets and
commercial or financial information obtained from a person [that is] privileged or confidential,”
5 U.S.C. §552(b)(4), applied and the unredacted emails would not be disclosed. See id. However,
Ms. Johnson enclosed a 2015 letter from the law firm of Littler Mendelson, P.C. pertaining to the
filings, along with redacted versions of the DynCorp emails that had been filed with ALJ Merck.
See Def.’s Cross-Mot., Ex. 1, Attachs. D–E. The DynCorp email chain—which contains a total
of five separate emails—contains two partially redacted emails, which are also the first two
emails of the chain. Of those two emails, only the sender, recipients, date, and subject line were
released. Def.’s Cross-Mot., Ex. 1, Attach. E. The chronologically first email (“the Powers
email”) spans roughly three pages. Def.’s Cross-Mot., Ex. 1, Attach. E. The second email (“the
Huber email”) spans roughly half of a page. Def.’s Cross-Mot., Ex. 1, Attach. E.
Littler Mendelson’s letter stated that, per an October 2015 Order from ALJ Merck, the
firm submitted unredacted copies of the DynCorp emails to ALJ Merck for in camera review.
See Def.’s Cross-Mot., Ex. 1, Attach. D at 25. Littler Mendelson maintained that “the redacted
portions of the at-issue email thread are privileged” and explained “the basis for asserting
attorney–client privilege.” Id. The DynCorp emails “concerned the status of operations issues in
connection with the Worldwide Protective Services (‘WPS’) Program contract” and were
transmitted to Christopher Bellomy, an in-house lawyer for DynCorp. Id. Littler Mendelson
asserted that the DynCorp emails were transmitted to Mr. Bellomy to apprise him and other

4

App. 25
employees3 “of developments potentially impacting the contract.” Id. at 26. These emails, Littler
Mendelson contended, “were intended to be, and should remain, privileged among the select
group of employees who received the at-issue communication.” Id. at 25. The letter stated that
the notation “Subject to Attorney Client Privilege” appeared within the DynCorp emails and that
the DynCorp emails requested legal advice related to the developments discussed therein. See id.
at 25–26. The DOL redacted “all text from the body of the initial two [e]mails,” because,
according to Defendant, these two emails were privileged in their entirety. Compl. ¶¶ 2, 11.
Littler Mendelson’s letter also satisfied Mr. Jordan’s third request.4 See Def.’s Cross-Mot., Ex. 1,
Attach. C at 22.
B. FOIA Request No. F2016-819736
On July 5, 2016,5 Mr. Jordan submitted “additional requests” related to the FOIA request
described above. Def.’s Cross-Mot., Ex. 1, Attach. F at 34, ECF No. 20-1. The DOL labeled this
supplemental request FOIA Request No. F2016-819736 (“Request No. 819736”). Def.’s CrossMot., Ex. 2, Attach. HH at 29, ECF No. 20-2.6 In Request No. 819736, Mr. Jordan sought (1) “a
copy of any documentation in the OALJ’s records evidencing or relating to any action of, or

3

Other employees that received the DynCorp emails include Darin Powers, Robert A.
Huber, Brian J. Cox, William Imbrie, Martha Huelsbeck, and Aubrey Mitchell. See Def.’s CrossMot., Ex. 1, Attach. E.
4

Mr. Jordan does not challenge the DOL’s submission of the Littler Mendelson letter as
an insufficient response to his request for “a copy of any letter of transmittal, facsimile cover
sheet or any other evidence dated at any time in October through December 2015 identifying the
person or party who forwarded to Judge Merck’s office (or to the OALJ) any version of the
[DynCorp] emails.” Answer, Ex. 4, 15–16. As such, the Court considers the parties to be in
agreement that the DOL’s response satisfied this portion of Mr. Jordan’s original request.
5

Mr. Jordan submitted this request at 11:24 PM CST on July 5, 2016, and the DOL
received this request at about 12:24 AM EST on July 6, 2016. Pl.’s Corrected Mot. Summ. J. at
8, ECF No. 16. For clarity, the Court will use July 5, 2016, as the date of this request.
6

All attachments to Def.’s Cross-Mot., Ex. 2 can be found at ECF No. 20-2.
5

App. 26
exemptions.”). The nine FOIA “exemptions are ‘explicitly exclusive.’” DOJ v. Tax Analysts, 492
U.S. 136, 151 (1989) (quoting FAA Adm’r v. Robertson, 422 U.S. 255, 262 (1975)). And it is the
agency’s burden to show that withheld material falls within one of these exemptions. See 5
U.S.C. § 552(a)(4)(B); see also Elliott, 596 F.3d at 845.
“FOIA cases typically and appropriately are decided on motions for summary judgment.”
Defs. of Wildlife v. U.S. Border Patrol, 623 F. Supp. 2d 83, 87 (D.D.C. 2009). When assessing a
summary judgment motion in a FOIA case, the district court reviews the matter de novo. See 5
U.S.C. § 552(a)(4)(B); Life Extension Found., Inc. v. IRS, 915 F. Supp. 2d 174, 179 (D.D.C.
2013). Summary judgment is appropriate when “the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R.
Civ. P. 56(a). A “material” fact is one capable of affecting the substantive outcome of the
litigation. See Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). A dispute is “genuine”
if there is enough evidence for a reasonable jury to return a verdict for the non-movant. See Scott
v. Harris, 550 U.S. 372, 380 (2007).
In withholding documents pursuant to a FOIA exemption, “the agency must provide ‘a
detailed justification and not just conclusory statements to demonstrate that all reasonably
segregable information has been released.’” Gatore v. U.S. Dep’t of Homeland Sec., 177 F. Supp.
3d 46, 51 (D.D.C. 2016) (quoting Valfells v. CIA, 717 F. Supp. 2d 110, 120 (D.D.C. 2010)). To
satisfy this burden, “an agency may rely on detailed affidavits, declarations, a Vaughn index, in
camera review, or a combination of these tools.” Comptel v. FCC, 910 F. Supp. 2d 100, 111
(D.D.C. 2012). Typically, agencies provide courts with the required information via a
“combination” of a Vaughn index and agency declarations. See id. “A Vaughn index correlates
each withheld document, or portion thereof, with a particular FOIA exemption and the

12

App. 27
justification for nondisclosure.” Id. (citing Vaughn v. Rosen, 484 F.2d 820, 827 (D.C. Cir.
1973)).
The agency “affidavits [must] describe the documents and the justifications for
nondisclosure with reasonably specific detail, demonstrate that the information withheld
logically falls within the claimed exemption, and are not controverted by either contrary
evidence in the record nor by evidence of agency bad faith.” Military Audit Project v. Casey, 656
F.2d 724, 738 (D.C. Cir. 1981). Moreover, agency affidavits generally enjoy “a presumption of
good faith.” See SafeCard Servs., Inc. v. SEC, 926 F.2d 1197, 1200 (D.C. Cir. 1991) (citing
Ground Saucer Watch, Inc. v. CIA, 692 F.2d 770, 771 (D.C. Cir. 1981)). The agency should
“disclose as much information as possible without thwarting the exemption’s purpose.” Hall v.
U.S. Dep’t of Justice, 552 F. Supp. 2d 23, 27 (D.D.C. 2008) (quoting King v. U.S. Dep’t of
Justice, 830 F.2d 210, 224 (D.C. Cir. 1987)). “Ultimately, an agency’s justification for invoking
a FOIA exemption is sufficient if it appears ‘logical’ or ‘plausible.’” Wolf v. CIA, 473 F.3d 370,
374–75 (D.C. Cir. 2007) (quoting Gardels v. CIA, 689 F.2d 1100, 1105 (D.C. Cir. 1982)).
Generally, a reviewing court should “respect the expertise of an agency” and not “overstep the
proper limits of the judicial role in FOIA review.” Hayden v. Nat’l Sec. Agency/Cent. Sec. Serv.,
608 F.2d 1381, 1388 (D.C. Cir. 1979).15

15

The Court ordered in camera review of the DynCorp emails. Such review is
appropriate when “the district judge believes that in camera inspection is needed in order to
make a responsible de novo determination on the claims of exemption.” Ray v. Turner, 587 F.2d
1187, 1195 (D.C. Cir. 1978). Of course, in camera review does not excuse the government of its
“obligation to provide detailed public indexes and justifications whenever possible.” Am.
Immigration Council v. U.S. Dep’t of Homeland Sec., 950 F. Supp. 2d 221, 235–36 (D.D.C.
2013) (quoting Lykins v. U.S. Dep’t of Justice, 725 F.2d 1455, 1463 (D.C. Cir. 1984)).
13

App. 28
Johnson;16 (2) strike in its entirety the Smyth Declaration;17 (3) compel the production evidence
related to the Smyth Declaration;18 (4) strike the DOJ’s October 25 motion requesting an

16

Mr. Jordan seeks to compel depositions of Mr. Smyth and Ms. Johnson. See Pl.’s Mot.
Compel Dep. at 2, ECF No. 24. Mr. Jordan claims that he “cannot verify or refute without
discovery” the Smyth Declaration and the DOL’s Memo and that he requires “a deposition of . . .
Todd Smyth and Diane Johnson to be conducted as soon as practicable.” See id. at 1–2.
“FOIA actions are typically resolved without discovery.” Voinche v. FBI, 412 F. Supp. 2d
60, 71 (D.D.C. 2006) (citation omitted). Indeed, “[d]iscovery in FOIA is rare and should be
denied where an agency’s declarations are reasonably detailed, submitted in good faith and the
court is satisfied that no factual dispute remains.” Schrecker v. U.S. Dep’t of Justice, 217 F.
Supp. 2d 29, 35 (D.D.C. 2002). Though “FOIA actions are not exempted from the discovery
provisions of the Federal Rules of Civil Procedure and the scope of the discovery permitted . . .
lies in the [C]ourt’s discretion,” the Court treats further discovery in FOIA actions skeptically
and prefers to permit limited discovery only when truly necessary. Bureau of Nat’l Affairs, Inc.
v. IRS, 24 F. Supp. 2d 90, 92 (D.D.C. 1998). It is well-established in this district that “a declarant
in a FOIA case satisfies the personal knowledge requirement in Rule 56(e) if in his declaration,
he attests to his personal knowledge of the procedures used in handling a FOIA request and his
familiarity with the documents in question.” Barnard v. U.S. Dep’t of Homeland Sec., 531 F.
Supp. 2d 131, 138 (D.D.C. 2008) (internal citation and alterations omitted); see also Schmitz v.
U.S. Dep’t of Justice, 27 F. Supp. 3d 115, 120 (D.D.C. 2014) (noting that the rule in Barnard is
“established”)
Mr. Smyth’s declaration establishes that he has personal knowledge of the procedures
used in handling a FOIA request and demonstrates that he is familiar with the documents in
question, and thus satisfies Rule 56(e)’s personal knowledge requirement. See Smyth Decl. ¶¶ 1,
21–31; Barnard, 531 F. Supp. 2d at 138. And although Mr. Jordan implies bad faith by Mr.
Smyth and states that “there is very good reason to believe that the facts asserted were not within
Smyth’s personal knowledge” and “[s]ome factual assertions were very clearly false,” he offers
no evidence to substantiate his allegations that might warrant further discovery. See Mem. P. &
A. Supp. Pl.’s Mot. Compel Dep. (“Pl.’s Mot. Compel Deps. Mem.”) at 4, ECF No. 24-1. The
Court does not view Mr. Jordan’s “mere assertions” as a sufficient rationale to allow discovery in
this FOIA action. See Voinche, 412 F. Supp. 2d at 72. The Court finds the depositions sought
here unnecessary and denies Mr. Jordan’s motion.
17

Mr. Jordan moves to strike the Smyth Declaration on the grounds that “[Mr.] Smyth
and the DOJ clearly disregarded all safeguards to ensure that Smyth’s Declaration was reliable or
probative” as outlined by FRCP 56(c)(4). Pl.’s Mot. Strike Smyth Decl. at 2, ECF No. 25.
“The decision to grant or deny a motion to strike is vested in the trial judge’s sound
discretion.” Canady v. Erbe Elektromedizin GmbH, 307 F. Supp. 2d 2, 7 (D.D.C. 2004) (citation
omitted). “[M]otions to strike are not favored,” and the Court maintains “considerable discretion
in disposing of motions to strike.” Cobell v. Norton, 224 F.R.D. 1, 2 (D.D.C. 2004). Indeed,

16

App. 29

motions to strike are “often . . . considered ‘time wasters.’” Id. (quoting 2A Moore’s Federal
Practice, § 12.21 at 2419).
Mr. Jordan’s only germane contention alleges that the Smyth Declaration included facts
of which Mr. Smyth had no personal knowledge. See Mem. P. & A. Supp. Pl.’s Mot. Strike
Smyth’s Decl. (“Pl.’s Mot. Strike Smyth Decl. Mem.”) at 5–6, ECF No. 25-1. Mr. Jordan notes
that “[a]n affidavit or declaration [ ] must be made on personal knowledge . . . and show that the
affiant or declarant is competent to testify on the matters stated.” Id. at 5 (quoting Fed. R. Civ. P.
56(c)(4)); see also Londrigan v. FBI, 670 F.2d 1164, 1174 (D.C. Cir. 1981) (stating that the
“requirement of personal knowledge by the affiant is unequivocal[] and cannot be
circumvented”). The Court dealt with this concern in footnote 16 above. Mr. Smyth’s job
responsibilities “included advising OALJ FOIA personnel on FOIA requests that were assigned
to [his] agency component.” Smyth Decl. ¶ 1. Mr. Smyth’s work competencies indicate that he
has the personal knowledge required to submit his declaration, and the extensive record
submitted by the DOL presents an exhaustive companion piece to corroborate the facts in the
Smyth Declaration and ground Mr. Smyth’s knowledge in the attached documents. See Def.’s
Cross-Mot., Ex. 1, Attachs. A–W. The Court thus denies Mr. Jordan’s motion to strike Smyth’s
Declaration.
18

Mr. Jordan moves for this Court to order the DOL to produce documents regarding “(1)
any draft or version of Smyth’s Declaration or (2) any language that was included in Smyth’s
Declaration or in any draft or version of Smyth’s Declaration.” Pl.’s Mot. Compel Produc. at 1,
ECF No. 29.
The Court reiterates that “FOIA actions are typically resolved without discovery.”
Voinche, 412 F. Supp. 2d at 71 (citation omitted). “Discovery in FOIA is rare and should be
denied where an agency’s declarations are reasonably detailed, submitted in good faith and the
court is satisfied that no factual dispute remains.” Schrecker, 217 F. Supp. 2d at 35. Typically in
FOIA cases, discovery of the kind Mr. Jordan seeks is “unnecessary and impermissible” where
the Court finds, as it does here, “no genuine issue of material fact” exists. Bureau of Nat’l
Affairs, 24 F. Supp. 2d at 92. Though “FOIA actions are not exempted from the discovery
provisions of the Federal Rules of Civil Procedure and the scope of the discovery permitted . . .
lies in the [C]ourt’s discretion,” the Court treats further discovery in FOIA actions skeptically
and prefers to permit limited discovery only when truly necessary. Id.
Granting this motion would depend on concrete evidence rebutting the “presumption of
good faith” accorded to the DOL in submitting the Smyth Declaration. See Shrecker, 217 F.
Supp. 2d at 35; Voinche, 412 F. Supp. 2d at 64. Rather than providing such concrete evidence,
Mr. Jordan’s motion is littered with speculative claims. Mr. Jordan invokes the “crime–fraud
exception,” Pl.’s Mot. Compel Produc. at 7, alleges “perjury,” id. at 9, misrepresents the reason
for submitting the Smyth Declaration as seeking to “influence” the Court, id., and claims that the
DOJ and DOL are engaged in a “cover up” of ALJ Merck’s “criminal conduct,” id. at 11. These
repeated claims never rise above speculation to warrant the kind of discovery Mr. Jordan desires.
The Court denies Mr. Jordan’s motion to compel the production of evidence regarding the Smyth
Declaration.

17

App. 30
2. The Information in Question was Obtained from a Person
A “person,” under FOIA, includes “an individual, partnership, corporation, association,
or public or private organization other than an agency.” 5 U.S.C. § 551(2). The OALJ received
the at-issue documents “from counsel for the company [DynCorp] in the Defense Base Act
hearing before the OALJ.” Def.’s Mem. at 11, ECF No. 20. Mr. Jordan makes no argument to the
contrary. See generally Pl.’s Corrected Mot. Summ. J., ECF No. 16. Thus, the sole remaining
issue is whether the information in the DynCorp emails is privileged.
3. The Information in the Powers Email is Privileged
The DOL contends that the withheld information is privileged under Exemption 4. See
Def.’s Mem. at 12–14, ECF No. 20. Specifically, the DOL claims that it contains attorney–client
privileged communications. See Def.’s Mem. at 12. To substantiate its claim, the DOL asserts
that the DynCorp emails had “been marked ‘Subject to Attorney Client Privilege’ and
transmitted to an in-house attorney for [DynCorp] in order to apprise him of developments
potentially impacting the Worldwide Protective Services Program contract and to explicitly
request the attorney’s input and review of the information transmitted.” Smyth Decl. ¶ 31; see
also Vaughn Index (claiming the information as privileged under Exemption 4 in nearly identical
language). In conclusory terms, Mr. Jordan responds that there is no “factual basis or legal
authority that support[s] the application of any FOIA exemption to Plaintiff’s FOIA requests.”
Pl.’s Corrected Mot. Summ. J. at 28, ECF No. 16. Mr. Jordan contends that the OALJ’s “denials
of Plaintiff’s FOIA requests [ ] were notably devoid of any explanation.” Id. Mr. Jordan asserts
that the OALJ erroneously “contended that FOIA Exemption 4 applied because ALJ Merck
purportedly ruled that the [DynCorp] [e]mails were privileged” while “fail[ing] to make any
rational connection between FOIA Exemption 4 and the OALJ’s purported basis for invoking

21

App. 31
such exemption.” Id. Mr. Jordan insists that “[n]o OALJ representative made any such
determination” finding the DynCorp emails privileged, and, consequently, implores the Court to
make no such determination now. Def.’s Reply at 10.
“‘Privileged’ information is generally understood to be information that falls within
recognized constitutional, statutory, or common law privileges.” Gen. Elec. Co. v. Air Force, 648
F. Supp. 2d 95, 101 n.4 (D.D.C. 2009) (citing Wash. Post Co. v. HHS, 690 F.2d 252, 267–68,
n.50 (D.C. Cir. 1982)). Though “case law examining privilege under Exemption 4 is sparse,”
Def.’s Mem. at 12, courts have repeatedly found that Exemption 4’s “privilege” requirement
covers properly-practiced attorney–client privilege, see Gen. Elec. Co., 648 F. Supp. 2d at 101
n.4; Artesian Indus., Inc. v. HHS, 646 F. Supp. 1004, 1007–08 (D.D.C. 1986); Indian Law Res.
Ctr. v. U.S. Dep’t of Interior, 477 F. Supp. 144, 149 (D.D.C. 1979). Though “the mere fact that
an attorney is listed as a recipient . . . does not make a document protected under [attorney–
client] privilege,” Vento v. I.R.S., 714 F. Supp. 2d 137, 151 (D.D.C. 2010), confidential
disclosures between an attorney and her client regarding factual and legal matters are certainly
protected by attorney–client privilege, see, e.g., Fisher v. United States, 425 U.S. 391, 403
(1976) (“Confidential disclosures by a client to an attorney made in order to obtain legal
assistance are privileged.”); Vento, 714 F. Supp. 2d at 151 (noting that “[f]actual information
provided by the client to the attorney is the essence of privilege”); Mead Data Cent., Inc. v. Air
Force, 566 F.2d 242, 252 (D.C. Cir. 1977) (stating that attorney–client privilege protects
“confidential communications between an attorney and his client relating to a legal matter for
which the client has sought professional advice”).
The DOL’s justification—as set forth in the Smyth Declaration and Vaughn Index and
confirmed by the Court’s in camera review—is sufficiently detailed for the Court to conclude

22

App. 32
that FOIA Exemption 4 applies to the Powers email, because it contained privileged
communications between an attorney and his client. The DOL describes the DynCorp emails in a
detailed manner—though obviously in such a way that does not disclose the information it seeks
to protect—and there is nothing in the record to question the presumption of good faith that the
Court affords the DOL in its explanation. The DOL explains that the DynCorp emails concerned
DynCorp’s confidential information regarding a business contract and expressly sought
DynCorp’s attorney’s input and review. Smyth Decl. ¶ 31; Vaughn Index. Additionally, the DOL
reiterated that the DynCorp emails are “marked ‘Subject to Attorney Client Privilege.’” Smyth
Decl. ¶ 31; Vaughn Index. This description supports the inference that the DynCorp emails
concern contractual information that DynCorp wishes to protect and that this contractual
information was sent to in-house attorney Christopher Bellomy for his legal advice.
However, the Court’s review of the DynCorp emails in camera has revealed that the
DOL’s justifications are much more applicable to the Powers email than they are to the Huber
email. The Powers email itself is labeled “subject to attorney–client privilege;” the Huber email
is itself not. The Powers email contains an express request for legal advice; the Huber email does
not. Indeed, although the Huber email responds to information in the Powers email and has Mr.
Bellomy “cc-ed,” it does not necessarily meet the standard for attorney–client privilege—at least
as the DOL has articulated its justification to this point.22 The Court requires further briefing
focusing specifically on the DOL’s justification to withhold the Huber email before it is prepared
to grant summary judgment for either party.

22

“[M]erely copying or ‘cc-ing’ legal counsel, in and of itself, is not enough to trigger the
attorney–client privilege.” Phillips v. C.R. Bard, Inc., 290 F.R.D. 615, 630 (D. Nev. 2013).
23

App. 33
The Court therefore orders the DOL to provide further justification for withholding with
respect to the Huber email (or voluntarily release it). With respect to the Powers email, the
Court’s in camera review confirms that the content of the information and the reason it was
communicated satisfy the demands of attorney–client privilege.
B. DynCorp Did Not Waive its Attorney–Client Privilege
Mr. Jordan claims that, even if the communications were privileged when originally
made, DynCorp subsequently waived any claim to privilege in three ways. First, he argues that
DynCorp waived the privilege by submitting the DynCorp emails to the OALJ in the DBA
Proceedings. 23 See Pl.’s Corrected Mot. Summ. J. at 32–40, ECF No. 16. Second, Mr. Jordan
contends that DynCorp waived its claim of privilege by failing to ever fully justify its invocation
of privilege. See Pl.’s Corrected Mot. Summ. J. at 43. Mr. Jordan claims that DynCorp failed to
properly “identify recipients of the [DynCorp] [e]mails in [its] [r]equired [d]isclosures” and
“failed to provide information about the purpose of the [DynCorp] [e]mails that would support a
finding that the [DynCorp] [e]mails were privileged.” Id. at 43–44. Mr. Jordan asserts that this
insufficient provision of information regarding the DynCorp emails waives any privilege that
may be applicable to them. See id. Finally, Mr. Jordan argues that “[DynCorp]’s failure to show

23

In conclusory terms, Mr. Jordan asserts that DynCorp waived its privilege when nonattorney DynCorp managers forwarded the DynCorp emails among each other, without including
Mr. Bellomy in the emails. Pl.’s Corrected Mot. Summ. J. at 41. Such forwarding does not waive
privilege. Mr. Bellomy was an attorney to DynCorp—not any or all of the individual employees
identified by Plaintiff—giving advice to DynCorp, and thus DynCorp holds the attorney–client
privilege over the documents. See Upjohn Co. v. United States, 449 U.S. 383, 394 (1981).
Internal distribution of privileged materials among corporate managers does not automatically
waive attorney–client privilege; the DynCorp managers who circulated Mr. Bellomy’s advice did
not disclose that advice to any “third party.” See In re United Mine Workers of Am. Employee
Ben. Plans Litig., 159 F.R.D. 307, 313 (D.D.C. 1994).

24

App. 34
received “an amended privilege log to address Claimant’s concerns about the [c]ompany’s
description of the privileged communication,” id. at 16; DynCorp’s Opposition Memorandum in
the DBA Proceedings and the Littler Mendelson letter submitted to ALJ Merck for in camera
review included a detailed description of the DynCorp emails and the reason for considering
them privileged similar to the rationale espoused in the Smyth Declaration and Vaughn Index,
see id. at 16; and DynCorp’s “management-level employees expressly sought legal advice from
[DynCorp]’s in-house counsel” in the DynCorp emails, id. at 18. In short, DynCorp consistently
substantiated and maintained its claim of privilege throughout the DBA Proceedings. Thus, the
Court finds that DynCorp did not waive its attorney–client privilege.
C. Defendant Provided All “Reasonably Segregable” Portions of the Powers Email
In response to Request No. 806591, the DOL disclosed a partially redacted version of the
DynCorp emails that provided unredacted emails from Mr. Imbrie, Mr. Powers and Mr. Huber
sent the morning of July 31, 2013, as well as email headings from the Huber email and the
Powers email.26 See Def.’s Cross-Mot., Ex. 1, Attach. E, ECF No. 20-1. However, the DOL
completely redacted the text of the Huber email and the Powers email. See id. In Request No.
808886—filed in relation to the redacted emails Mr. Jordan received in response to Request No.
806591—Mr. Jordan sought the disclosure of the “notation ‘Subject to Attorney Client Privilege’
and non-privileged information supporting [the] contention that . . . [DynCorp] management
‘expressly sought legal advice.’” Pl.’s Reply at 3, ECF No. 30; see also Def.’s Cross-Mot., Ex. 1,
Attach. G. The DOL maintains that the redacted emails already submitted to Mr. Jordan contain
everything that could be disclosed and that segregability would “not [be] applicable to the

26

The Huber email was sent at 8:20 AM on July 31, 2013, and the Powers email was sent
at 5:39 PM on July 30, 2013. Def.’s Cross-Mot., Ex. 1, Attach. E.
28

App. 35
redacted portions” of the DynCorp emails. Smyth Decl. ¶ 27. The DOL further maintains that
“any attempt at further segregating” the DynCorp emails “would provide little or no
informational value,” and the privileged “material is inextricably intertwined” with any
unprivileged material. Id. Because the Court denies Defendant’s motion for summary judgment
with respect to the Huber email, its segregability analysis is confined to the Powers email.
FOIA requires disclosure of “any reasonably segregable portion” of an otherwise-exempt
record. 5 U.S.C. § 552(b). An agency need not disclose non-exempt portions of records that “are
inextricably intertwined with exempt portions.” Kurdyukov v. U.S. Coast Guard, 578 F. Supp. 2d
114, 128 (D.D.C. 2008); see also Mead Data, 566 F.2d at 260. “[T]o demonstrate that all
reasonably segregable material has been released, the agency must provide a ‘detailed
justification’ for its non-segregability,” but “the agency is not required to provide so much detail
that the exempt material would be effectively disclosed.” Johnson v. Exec. Office of U.S. Att’ys,
310 F.3d 771, 776 (D.C. Cir. 2002) (quoting Mead Data, 566 F.2d at 261). Simple “conclusory
assertions” that all “reasonably segregable” information has been disclosed “fall short of the
specificity required for a court to properly determine whether the non-exempt information is, in
fact, not reasonably segregable.” Branch v. FBI, 658 F. Supp. 204, 210 (D.D.C. 1987) (citing
Mead Data, 566 F.2d at 260). Additionally, the Court “has the obligation to consider the
segregability issue sua sponte, regardless of whether it has been raised by the parties,” Johnson,
310 F.3d at 776 (citing Trans-Pacific Policing Agreement v. U.S. Customs Serv., 177 F.3d 1022,
1028 (D.C. Cir. 1999)), and “it is error for a district court to simply approve the withholding of
an entire document without entering a finding on segregability, or the lack thereof,” Schiller v.
NLRB, 964 F.2d 1205, 1210 (D.C. Cir. 1992) (quoting Powell v. U.S. Bureau of Prisons, 927
F.2d 1239, 1242 n.4 (D.C. Cir. 1991)).

29

App. 36
With that said, the law of segregability does not require a court to “order an agency to
commit significant time and resources to the separation of disjointed words, phrases, or even
sentences which taken separately or together have minimal or no information content.” Mead
Data, 566 F.2d at 261 n.55; see also Brown v. U.S. Dep’t of Justice, 734 F. Supp. 2d 99, 110–11
(D.D.C. 2010) (quoting Assassination Archives And Research Center v. C.I.A., 177 F. Supp. 2d
1, 9 (D.D.C. 2001), order amended, (Oct. 25, 2001) and judgment aff’d, 334 F.3d 55 (D.C. Cir.
2003)). In the context of documents exempted by the attorney–client privilege, it is sufficient for
an agency’s declaration to provide sufficient detail for a court “to conclude that those isolated
words or phrases that might not be redacted for release would be meaningless.” Nat’l Sec.
Archive Fund, Inc. v. CIA, 402 F. Supp. 2d 211, 221 (D.D.C. 2005). “If the rule were otherwise,
courts would be required to parse emails, letters and general conversations on a statement-bystatement basis to determine which sentences or even clauses were protected and which were
not. This would only increase the costs and lengthen the delays in litigation even beyond what
they are today.” Kimberly-Clark Worldwide Inc. v. First Quality Baby Prod. LLC, 2015 WL
13022282, at *3 (E.D. Wis. Apr. 9, 2015).
As a general matter, the DOL’s Vaughn Index and attendant affidavits provide a
sufficiently “detailed justification” for the DOL’s position that it has released all non-segregable
materials contained in the Powers email, or that release of stray material would be meaningless.
The DOL bolsters its assertion that “[s]egregability is not applicable to the redacted portions”
with an in-depth explanation for withholding the information in its entirety. See Smyth Decl. at
10–12, ¶¶ 27–31; Vaughn Index. The DOL details the precise rationale supporting FOIA
Exemption 4’s application to the Powers email. See id. The Vaughn Index first explains that the
Powers email is “commercial” or “financial” because it “concern[s] the status of operations

30

App. 37
issues in connection with the WPS Program contract,” “the submitter of the information has a
commercial interest in” the Powers email, and the Powers email “relate[s] to business or trade
within the ordinary meanings of those terms.” Vaughn Index. Finally, the Vaughn Index explains
that the Powers email is privileged because it was “transmitted to an in-house attorney for
[DynCorp] in order to apprise him of developments potentially impacting the contract,”
“explicitly request[ed] the attorney’s input and review of the information transmitted,” and was
“clearly marked ‘Subject to Attorney Client Privilege.’” Vaughn Index.
The specific materials that Mr. Jordan seeks—any statement by a DynCorp employee
“that constituted an express request for legal advice” and the notation “Subject to Attorney–
Client Privilege,” Compl. ¶ 7—were justifiably not produced. The first category is, by its very
nature, not segregable. Any “express requests for legal advice” made by DynCorp employees to
DynCorp’s lawyer would themselves be privileged because they were express requests for legal
advice. See FTC v. Boehringer Ingelheim Pharm., Inc., 180 F. Supp. 3d 1, 30 (D.D.C. 2016)
(suggesting that “express requests for or provision of legal advice” are prototypically privileged);
see also P.&B. Marina, Ltd. v. Logrande, 136 F.R.D. 50, 53 (E.D.N.Y. 1991), aff’d sub nom.
P&B Marina Ltd. v. LoGrande, 983 F.2d 1047 (2d Cir. 1992) (noting that attorney–client
privilege “protects communications that . . . [are] express requests for legal advice”).
And, assuming without deciding that it was not itself privileged, the DOL properly
withheld the notation “Subject to Attorney–Client Privilege.” Beyond bolstering Defendant’s
claim that it shows the communications were privileged, the sentence “Subject to Attorney Client
Privilege” is “an isolated . . . phrase[] . . . [of which] release would be meaningless.” Nat’l Sec.
Archive Fund, Inc. v. CIA, 402 F. Supp. 2d 211, 221 (D.D.C. 2005). Mr. Jordan’s request for the
emails with this notation unredacted is transparently not an attempt to ascertain “what [his]

31

App. 38
government is up to,” see Nat’l Archives & Records Admin. v. Favish, 541 U.S. 157, 171 (2004),
but is instead a fishing expedition with which he hopes to catch the government red-handed.
Stated differently, after he was presented with sworn evidence that the documents contained the
notation, he responded: “prove it.” But the government’s affiant is entitled to a presumption of
good faith. See SafeCard Servs., Inc., 926 F.2d at 1200. Without any evidence rebutting that
presumption, the Court would have no reason to question that the privilege notation alone—
which, by Mr. Jordan’s own logic sheds no light on the substantive contents of the privileged
conversation—is a boilerplate, “isolated” phrase in an otherwise-privileged document, of which
“release would be meaningless.” See Nat’l Sec. Archive Fund, Inc., 402 F. Supp. 2d at 221.
Indeed, the Court’s in camera review confirms this to be the case. Regardless, the Court will not
adopt a rule that requires agencies “to parse [privileged] emails, letters and general conversations
on a statement-by-statement basis to determine which sentences or even clauses were protected
and which were not” when there is no indication that the clauses have any substantive meaning.
See Kimberly-Clark Worldwide Inc., 2015 WL 13022282, at *3.
Taken together, the DOL “supplied a ‘relatively detailed justification, specifically
identifying the reasons why a particular exemption is relevant and correlate[ed] those claims
with the particular part of [the] withheld document,” and demonstrated that the release of certain
portions would be meaningless. Hertzberg v. Veneman, 273 F. Supp. 2d 67, 90 (D.D.C. 2003)
(quoting Schiller, 964 F.2d at 1210); Nat’l Sec. Archive Fund, Inc., 402 F. Supp. 2d at 221. This
justification is not “conclusory” or “vague” and represents the DOL’s good faith effort to
segregate privileged and non-privileged information. The DOL reviewed the DynCorp email
chain, found the Powers email privileged, redacted that privileged information and disclosed all
other information—except the Huber email, which will be subject to further litigation—to Mr.

32

App. 39
Jordan. Def.’s Cross-Mot., Ex. 1, Attach. E. This precise segregation, coupled with the DOL’s
Vaughn Index, indicated to the Court that the DOL provided all meaningful, reasonably
segregable information to Mr. Jordan. The Court’s in camera review confirmed the DOL’s
justifications with respect to the Powers email. Because the DOL “show[ed] with reasonable
specificity why material could not be segregated,” the DOL has “[met] its burden under FOIA.”
Billington v. U.S. Dep’t of Justice, 301 F. Supp. 2d 15, 24 (D.D.C. 2004) (citing Armstrong v.
Executive Office of the President, 97 F.3d 575, 579 (D.C. Cir. 1996)).
D. Defendant Satisfactorily Responded to Request No. 819736
In Request No. 819736, submitted on July 5, 2016, Mr. Jordan sought (1) documentation
evidencing or providing a factual or legal basis for “the unredacted versions of the [DynCorp]
emails” being placed under seal and (2) “documentation submitted to the ALJ” opposing FOIA
Request No. 806591. See Def.’s Cross-Mot., Ex. 1, Attach. F at 35, ECF No. 20-1. Mr. Jordan
asserts that the DOL “failed to respond at all” to Request No. 819736 and that this failure to
respond means that the DOL must disclose the documents at issue. See Pl.’s Corrected Mot.
Summ. J. at 23, ECF No. 16. Furthermore, Mr. Jordan alleges that the “DOJ failed to cite any
evidence establishing that the DOL actually did respond at all . . . to the July 5 [r]equest in any
manner that could constitute a response under FOIA . . . .” Pl.’s Reply at 8, ECF No. 30. Mr.
Jordan asserts that this failure to respond necessitates the full disclosure of the documents
covered by Request No. 819736. Pl.’s Mot. Summ. J. at 23–24.
FOIA requires an agency to respond to a FOIA request within 20 business days. 5 U.S.C.
§ 552(a)(6)(A)(i); Pl.’s Corrected Mot. Summ. J. at 23. In the context of a federal court case, if
the agency has, “however belatedly, released all nonexempt material” the court has “no further
judicial function to perform under the FOIA.” Tijerina v. Walters, 821 F.2d 789, 799 (D.C. Cir.

33

App. 40
*

*

*

The Court appreciates zealous advocacy. But Mr. Jordan’s arguments for sanctions under
Rule 11—most of which call directly into question the integrity of opposing counsel—are
baseless, if not frivolous themselves. The Court notes that Mr. Jordan is a lawyer and an active
member of the New York bar. See New York State Unified Court System, Attorney Detail: Jack
R.T. Jordan, https://iapps.courts.state.ny.us/attorney/AttorneyDetails?attorneyId=5519085. The
Court reminds Mr. Jordan that “Rule 11 is not a toy.” Draper & Kramer, Inc. v. Baskin-Robbins,
Inc., 690 F. Supp. 728, 732 (N.D. Ill. 1988). Sanctioning the conduct of a litigant is a solemn
endeavor. “[A]n accusation of such wrongdoing is equally serious.” Id. The Court admonishes
Mr. Jordan to “think twice” before moving for sanctions in the future. See id. Mr. Jordan’s
cavalier approach to sanctions motions could result in him being sanctioned himself. See id.
(imposing sanctions, sua sponte, on a party for baselessly invoking Rule 11 in its unsuccessful
merits motion).

VI. CONCLUSION
For the foregoing reasons, the Court denies Mr. Jordan’s Corrected Motion for Summary
Judgment and grants the DOL’s Cross-Motion for Summary Judgment except as it relates to the
Huber email described above. Additionally, the Court grants Plaintiff’s Unopposed Motion to
Amend the Complaint, denies Mr. Jordan’s First Motion for Sanctions Under Rule 11, Motion to
Compel Depositions of Smyth and Johnson, Motion to Strike Smyth’s Declaration, Motion to
Compel Production of Evidence Regarding Smyth Declaration, Motion to Strike Prohibited Ex
Parte communication and Vacate October 26 Minute Order, Second Motion for Sanctions Under

48

App. 41
Rule 11, and Motion Regarding the APA as Basis for Decisions. An order consistent with this
Memorandum Opinion is separately and contemporaneously issued.
Dated: August 4, 2017

RUDOLPH CONTRERAS
United States District Judge

49

App. 42
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
JACK JORDAN,
Plaintiff,
v.
U.S. DEPARTMENT OF LABOR,
Defendant.

:
:
:
:
:
:
:
:
:

Civil Action No.:

16-1868 (RC)

Re Document No.:

40, 41, 43, 50, 55

MEMORANDUM OPINION
DENYING PLAINTIFF’S “MOTION TO DISQUALIFY JUDGE CONTRERAS”; DENYING PLAINTIFF’S
MOTION FOR RECONSIDERATION OF ORDER GRANTING DEFENDANT’S MOTION FOR
EXTENSION OF TIME; DENYING PLAINTIFF’S “MOTION FOR DISCLOSURE AND INCLUSION OF
PORTIONS OF THE EMAILS AND OTHER NON-PRIVILEGED EX PARTE COMMUNICATIONS”;
DENYING DEFENDANT’S RENEWED MOTION FOR SUMMARY JUDGMENT; DENYING WITHOUT
PREJUDICE DEFENDANT’S MOTION FOR A PROTECTIVE ORDER
I. INTRODUCTION
In this Freedom of Information Act (“FOIA”) case, Plaintiff Jack Jordan submitted
requests with the Office of Administrative Law Judges (“OALJ”), an agency within the United
States Department of Labor (“DOL”), seeking unredacted versions of two emails related to
Defense Base Act Case No. 2015–LDA–00030 (“DBA Proceedings”), a case in which Mr.
Jordan is representing his wife, Maria Jordan, against DynCorp International, Inc. (“DynCorp”).
In a prior Opinion, this Court granted summary judgment in favor of DOL with respect to one of
the emails. However, finding that DOL had insufficiently justified its withholding of the other
email, the Court denied both parties’ motions for summary judgment with respect to that email
and instructed DOL to either release it or to file a renewed motion for summary judgment with
further justification. Now before the Court is DOL’s renewed motion for summary judgment.
Also before the Court are Mr. Jordan’s “Motion for Disclosure and Inclusion of Portions of the

Page 2 of 32
App. 43
Emails and Other Non-Privileged Ex Parte Communications,” Mr. Jordan’s request that this
judge recuse himself, Mr. Jordan’s motion for reconsideration of an order granting DOL an
extension of time to file a reply, and DOL’s motion for a protective order barring Mr. Jordan
from filing future motions without leave of Court and permitting DOL to disregard Mr. Jordan’s
requests for production. For the reasons explained below, the Court denies all five motions.
II. FACTUAL BACKGROUND
The Court presumes familiarity with its prior Opinion. See Jordan v. U.S. Dep’t of
Labor, 273 F. Supp. 3d 214 (D.D.C. 2017). Accordingly, this Opinion will only briefly describe
the facts and allegations that are particularly relevant to the pending motions.
Over a period of seven months, Plaintiff Jack Jordan submitted a series of FOIA requests
to DOL, including a request seeking disclosure of any emails, dated July 30 or July 31, 2013,
with the subject line “WPS—next steps & actions” that DynCorp’s counsel had forwarded to
Administrative Law Judge Larry S. Merck. See Jordan, 273 F. Supp. 3d at 219–20. DOL found
that a string of five separate emails (the “DynCorp emails”) fit the bill. See id. at 220–21.
According to DOL, the DynCorp emails had been reviewed in camera by ALJ Merck, who
determined that they contained privileged attorney–client communications. See id. at 221. DOL
concluded that FOIA Exemption 4, which protects “trade secrets and commercial or financial
information obtained from a person [that is] privileged or confidential,” 5 U.S.C. § 552(b)(4),
applied to the unredacted version of the email chain and declined to release it. Id. at 221
(alteration in original).
However, DOL disclosed to Mr. Jordan a 2015 letter from the law firm Littler
Mendelson, P.C.—which represented DynCorp in the DBA Proceedings—and a redacted version
of the DynCorp email thread. See Jordan, 273 F. Supp. 3d at 221. The redacted version of the

Page 3 of 32
App. 44
DynCorp emails disclosed the full contents of three emails in the five-email chain, but revealed
only the sender, recipients, date, and subject line of the other two emails. See id. at 221. Of the
two partially redacted emails, the chronologically first email (“the Powers email”) spans roughly
three pages, and the second (“the Huber email”) spans roughly half a page. See id.
The letter from Littler Mendelson stated that it had submitted to ALJ Merck unredacted
versions of the emails for in camera inspection. Def.’s Cross–Mot. Summ. J. and Opp’n to Pl.’s
Corrected Mot. for Summ. J. (“Def.’s Cross–Mot.”), Ex. 1, Attach. D at 25, ECF No. 20–1. In
the letter, Littler Mendelson maintained that the redacted portions of the email thread “concerned
the status of operations issues in connection with the Worldwide Protective Services (‘WPS’)
Program contract, which were transmitted to Christopher Bellomy, Esq.—an in-house lawyer for
[DynCorp]—in order to apprise him (and other DI employees with responsibility for the
administration and management of the WPS Program contract) of developments potentially
impacting the contract.” Id. Littler Mendelson explained that one redacted email in the chain
included the notation “Subject to Attorney Client Privilege.” Id. Littler Mendelson asserted that
the emails “were intended to be, and should remain, privileged among the select group of
employees who received the at-issue communication.” Id.
Mr. Jordan later submitted additional requests related to the Powers and Huber emails.
See Jordan, 273 F. Supp. 3d at 222–23. Specifically, Mr. Jordan sought documentation in the
OALJ’s records justifying the decision to withhold the unredacted emails; any documents
submitted to OALJ opposing release of records responsive to Mr. Jordan’s FOIA request; and
any segregable portions of the Powers and Huber emails, including the notation “Subject to
Attorney Client Privilege” and any language that constituted an express request for legal advice.
See id. Mr. Jordan also contended that, for myriad reasons, DynCorp had waived any claim to

Page 4 of 32
App. 45
privilege. See id. at 223. Chief ALJ Stephen R. Henley denied Mr. Jordan’s request for
purportedly segregable portions of the Powers and Huber emails, reiterating ALJ Merck’s ruling
that the redacted portions of the DynCorp emails are covered by attorney–client privilege and
agreeing with DOL that FOIA Exemption 4 applied to the unredacted version of the email chain.
See id.
Mr. Jordan commenced this litigation in September 2016. See Compl., ECF No. 1. In his
complaint, Mr. Jordan sought “[i]njunctive relief ordering the DOL to disclose to [Mr. Jordan]
all previously undisclosed versions of the [DynCorp] [e]mails covered by [his request]” and
“[j]udgment for reasonable attorneys’ fees, if any, expenses, and costs.” Compl. at 10–11; Pl.’s
Unopposed Mot. Leave Amend Compl., ECF No. 19. Mr. Jordan and DOL each moved for
summary judgment, with the primary dispute being whether FOIA Exemption 4 applied to the
Powers and Huber emails. 1 See Jordan, 273 F. Supp. 3d at 224.
Following in camera inspection of the disputed emails, the Court denied in full Mr.
Jordan’s Corrected Motion for Summary Judgment and granted the DOL’s Cross–Motion for
Summary Judgment, except with respect to the Huber email. Id. at 226–27. The Court
concluded that DOL had “describe[d] the DynCorp emails in a detailed manner” and that there
was “nothing in the record to question the presumption of good faith that the Court affords the
DOL in its explanation.” Id. at 232. In assessing whether FOIA Exemption 4 applies to the
emails, the Court considered whether (1) the information at issue is “commercial or financial,”
(2) whether the information was obtained from a person, and (3) whether the information was
privileged or confidential. Id. at 229–30.

1

The Court also resolved a litany of other motions that Mr. Jordan had filed. See
Jordan, 273 F. Supp. 3d at 224–25, 239–46.

Page 5 of 32
App. 46
The Court found that both emails were “commercial” or “financial,” concluding that
DOL had sufficiently justified its contention that the emails pertained to the “status of operations
issues in connection with a business contract.” Id. at 230–31. The Court also determined that
both emails were obtained from a person. Id. at 231. However, based on DOL’s proffered
justifications and the Court’s in camera review, the Court concluded that only one email visibly
qualified as privileged. See id. at 231–32. Specifically, the Court observed that the justifications
for withholding are “much more applicable to the Powers email than they are to the Huber
email.” Id. at 232. The Court explained that the Powers email itself is labelled “subject to
attorney–client privilege”; the Huber email is not. Id. Likewise, the Powers email contained an
express request for legal advice, while the Huber email did not. Id. Finding that the Huber email
did not necessarily meet the standard for attorney–client privilege—at least based on DOL’s
justifications—the Court instructed DOL to either release the Huber email or to provide further
justification for withholding it. Id. In addition, the Court concluded, as relevant here, that
DynCorp had not waived its claim to privilege, that DOL had provided all reasonably segregable
portions of the Powers email, and that DOL had sufficiently responded to Mr. Jordan’s requests
for additional information about the DynCorp emails. See id. at 232–39.
Since the Court issued its August 4, 2017 Opinion, the parties have filed a number of
motions. Mr. Jordan has filed (1) a “Motion for Disclosure and Inclusion of Portions of the
Emails and Other Non-Privileged Ex Parte Communications” (ECF No. 40), (2) “Plaintiff’s
Motion to Reconsider DOL Motion for Extension of Time to File Reply Purporting to Support
Summary Judgment” (ECF No. 50) and (3) a “Motion to Disqualify Judge Contreras” (ECF No.
55). DOL has filed (1) a Renewed Motion for Summary Judgment (ECF No. 41) and (2) a

Page 8 of 32
App. 47
that a judge “shall disqualify himself in any proceeding in which his impartiality might
reasonably be questioned,” unless the parties waive the grounds for disqualification. Section
455(b) enumerates additional grounds under which a judge must recuse. One such reason is
“[w]here he has a personal bias or prejudice concerning a party, or personal knowledge of
disputed evidentiary facts concerning the proceeding.” Id. § 455(b)(1). To compel recusal under
Section 455(a), “the moving party must demonstrate the court’s reliance on an ‘extrajudicial
source’ that creates an appearance of partiality or, in rare cases, where no extrajudicial source is
involved, the movant must show a ‘deep-seated favoritism or antagonism that would make fair
judgment impossible.’” Tripp v. Executive Office of the President, 104 F. Supp. 2d 30, 34
(D.D.C. 2000) (quoting Liteky v. United States, 510 U.S. 540, 555 (1994)). “The standard for
disqualification under § 455(a) is an objective one.” United States v. Microsoft Corp., 253 F.3d
34, 114 (D.C. Cir. 2001). “The question is whether a reasonable and informed observer would
question the judge’s impartiality.” Id. To compel recusal under Section 455(b)(1), the moving
party must “demonstrate actual bias or prejudice based upon an extrajudicial source.” Tripp, 104
F. Supp. 2d at 34.
“[J]udicial rulings alone almost never constitute a valid basis for a bias or partiality
motion.” Id. (quoting Liteky, 510 U.S. at 555). Likewise, “opinions formed by the judge on the
basis of facts introduced or events occurring in the course of the current proceedings, or of prior
proceedings, do not constitute a basis for a bias or partiality motion unless they display a deepseated favoritism or antagonism that would make fair judgment impossible.” Liteky, 510 U.S. at

in his motion do not satisfy the “exacting” standards of § 144. See United States v. Haldeman,
559 F.2d 31, 134–35 (D.C. Cir. 1976) (explaining that to satisfy § 144, allegations in an affidavit
“must be definite as to time, place, persons, and circumstances” and may not be “merely of a
conclusionary nature”). Accordingly, the Court does not assess Mr. Jordan’s request under that
standard.

Page 20 of 32
App. 48
Court by the parties, no error of apprehension, and no significant or controlling change in the law
that might justify reconsideration of this Court’s reasoned prior determinations. He has likewise
failed to identify any other good reason for revisiting these arguments. Mr. Jordan apparently
hopes to reargue factual and legal contentions that this Court has already rejected. He ignores,
however that “[i]n this Circuit, it is well-established that ‘motions for reconsideration,’ whatever
their procedural basis, cannot be used as ‘an opportunity to reargue facts and theories upon
which a court has already ruled.” Estate of Gaither ex rel. Gaither v. District of Columbia, 771
F. Supp. 2d 5, 10 (D.D.C. 2011) (quoting Secs. & Exch. Comm’n v. Bilzerian, 729 F. Supp. 2d 9,
14 (D.D.C. 2010)).
Though the Court will not revisit the fine details of its decision again here, it bears briefly
explaining that Mr. Jordan appears to misapprehend the applicable legal burden in FOIA cases.
Yes, the agency has the burden of proving the applicability of any claimed FOIA exemption. See
Larson v. Dep’t of State, 565 F.3d 857, 862 (D.C. Cir. 2009). But it need not marshal
incontrovertible evidence to do so, as Mr. Jordan apparently supposes. Rather, to meet its
burden, an agency must “describe the justifications for nondisclosure with reasonably specific
detail, demonstrate that the information withheld logically falls within the claimed exemption,
and are not controverted by either contrary evidence in the record nor by evidence of agency bad
faith.” Id. (quoting Miller v. Casey, 730 F.2d 773, 776 (D.C. Cir. 1984)). DOL has done so
here. Accordingly, even if this Court were to reconsider the myriad aspects of its Opinion that
Mr. Jordan contests, this Court’s ruling would not change. To the extent that Mr. Jordan’s
motion requests reconsideration of aspects of this Court’s prior Opinion, it is denied.

Page 21 of 32
App. 49
b. Motion for Disclosure
In addition to asking this Court to revisit aspects of its prior Opinion, Mr. Jordan asks the
Court to disclose certain information. Specifically, Mr. Jordan requests (1) a version of the
Powers email that shows any attorney-client privilege notation and any non-commercial words
stating an express request for advice; (2) any non-public verbal or written communication in or
with which the Court received any factual information about the redacted content of the emails
or Mr. Bellomy’s status as an attorney and whether he was employed in advising DynCorp; and
(3) any non-commercial words in the DOL’s communication with the Court in or with which the
DOL submitted any version of the Powers email or the Huber email. Mr. Jordan contends that
Federal Rule of Evidence 106, the District of Columbia Code of Judicial Conduct, and notions of
fairness require this Court to disclose such information. The Court disagrees and denies Mr.
Jordan’s motion.
First, Mr. Jordan relies on Federal Rule of Evidence 106, which provides that “[i]f a party
introduces all or part of a writing or recorded statement, an adverse party may require the
introduction, at that time, of any other part—or any other writing or recorded statement—that in
fairness ought to be considered at the same time.” Fed. R. Evid. 106. Rule 106 partially codifies
the common law “rule of completeness,” which holds that “when one party has made use of a
portion of a document, such that misunderstanding or distortion can be averted only through
presentation of another portion, the material required for completeness is ipso facto relevant and
therefore admissible.” Beech Aircraft Corp. v. Rainey, 488 U.S. 153, 172 (1988); see also
Advisory Comm. Notes on Fed. R. Evid. 106 (explaining that the Rule is based on the
“misleading impression created by taking matters out of context” and on “the inadequacy of
repair work when delayed to a point later in the trial”). Other Circuits have applied the rule of

Page 22 of 32
App. 50
completeness “when it is necessary to (1) explain the admitted portion, (2) place the admitted
portion in context, (3) avoid misleading the trier of fact, or (4) insure a fair and impartial
understanding.” United States v. Vargas, 689 F.3d 867, 876 (7th Cir. 2012) (quoting United
States v. Lewis, 641 F.3d 773, 785 (7th Cir. 2011)); see also United States v. Johnson, 507 F.3d
793, 796 (2d Cir. 2007); United States v. Hoffecker, 530 F.3d 137, 192 (3d Cir. 2008). “The
application of the rule of completeness is a matter for the trial judge’s discretion.” United States
v. Washington, 12 F.3d 1128, 1137 (D.C. Cir. 1994).
It is abundantly clear that neither Federal Rule of Evidence 106 nor general notions of
fairness require a government agency or a court to release to a FOIA requester portions of a
partially released record that the agency contends are protected by a FOIA exemption. The
language of the FOIA statute establishes that portions of an agency record may be properly
withheld even if other portions must be released. See 5 U.S.C. § 552(B) (instructing courts to
“determine whether such [agency] records or any part thereof shall be withheld under any of the
exemptions set forth in subsection (b) of this section”). Indeed, the application of Rule of
Evidence 106 that Mr. Jordan requests would wholly undermine the purpose of these
proceedings—which is to assess whether DOL has properly withheld, in whole or in part, any
disputed records. Furthermore, the D.C. Circuit has rejected similar “fairness” arguments for
disclosure of redacted portions of partially released records. In Public Citizen v. Department of
State, 11 F.3d 198, 201 (D.C. Cir. 1993), for example, the Circuit rejected “contentions that it is
unfair, or not in keeping with FOIA’s intent, to permit [an agency] to make self-serving partial
disclosures of classified information,” explaining that such an argument is “properly addressed to
Congress, not to this court.” Id. at 204. And, in Williams & Connolly v. SEC, 662 F.3d 1240
(D.C. Cir. 2011), the Circuit rejected an argument that because the Department of Justice had

Page 23 of 32
App. 51
released 11 of 114 sets of notes during criminal proceedings, the Department was required to
release the remaining notes during subsequent FOIA proceedings that sought documents related
to the criminal proceedings. Id. at 1244–45. Among other things, the Circuit explained that
upholding the FOIA requester’s waiver theory would “impinge on executive discretion and
[would] deter agencies from voluntarily honoring FOIA requests.” Id. 1245. These same
concerns appear under the circumstances of this case. Federal Rule of Evidence 106 and fairness
considerations do not mandate release of the purportedly exempted portions of the partially
released email thread.
Second, Mr. Jordan argues that under various provisions of the Code of Judicial Conduct
of the District of Columbia, “the [disputed] Emails were received by the Court in an ex parte
communication that was prohibited” and, thus, the emails—or, at least portions of the emails—
must be released to him. Mot. for Disclosure at 33–43. As an initial matter, the Code of Judicial
Conduct of the District of Columbia applies to the local courts of the District of Columbia, not to
federal courts located in the District of Columbia. See J. Comm. on Judicial Admin. Res., D.C.
Courts (Feb. 15, 2018) (adopting “the 2018 Edition of the Code of Judicial Conduct for the
District of Columbia Courts”); J. Comm. on Judicial Admin. Res., D.C. Courts (Nov. 15, 2011)
(adopting an amended version of the 2007 American Bar Association Model Code of Judicial
Conduct as the “Code of Judicial Conduct for the District of Columbia Courts”); see also
Application, Code of Judicial Conduct, D.C. Courts,
https://www.dccourts.gov/sites/default/files/divisionspdfs/Code-of-Judicial-Conduct_2018.pdf.
Thus, this Court will instead look to the Code of Conduct for United States Judges, which applies
to federal court judges, to assess Mr. Jordan’s arguments. In pertinent part, Canon 3 of the Code
of Conduct for United States Judges states that “[e]xcept as set out below, a judge should not

Page 24 of 32
App. 52
initiate, permit, or consider ex parte communications or consider other communications
concerning a pending or impending matter that are made outside the presence of the parties or
their lawyers.” Canon 3(A)(4), Code of Judicial Conduct for United States Judges. The
provision goes on to state that “[a] judge may initiate, permit, or consider ex parte
communications as authorized by law.” Id. As the Court explained in detail above, courts are
plainly authorized to view and inspect disputed documents in camera in FOIA cases. See 5
U.S.C. § 552 (“In such a case the court . . . may examine the contents of such agency records in
camera to determine whether such records or any part thereof shall be withheld under any of the
exemptions.”). Furthermore, the decision whether to review documents in camera is left to “the
broad discretion of the trial judge.” American Civil Liberties Union v. U.S. Dep’t of Defense,
628 F.3d 612, 626 (D.C. Cir. 2011). Because the law plainly authorized in camera review of the
disputed documents at the heart of this case, the Code of Judicial Conduct for United States
Judges certainly does not obligate this Court to release any portion of the disputed documents to
Mr. Jordan. Accordingly, Mr. Jordan’s motion is denied.
B. Motions Filed by DOL
The Court next considers the two pending motions filed by DOL: (1) a renewed motion
for summary judgment, which asserts that the Huber email is properly withheld pursuant to
FOIA Exemption 4, and (2) a motion for a protective order. For the reasons explained below, the
Court denies both motions.

Page 25 of 32
App. 53
1. Renewed Motion for Summary Judgment
DOL renews its request for summary judgment with respect to the Huber email, arguing
once again that FOIA Exemption 4 exempts that document from disclosure. 6 Def.’s MSJ Mem.
at 6–13. Mr. Jordan disagrees, asserting that (1) DOL has failed to show the absence of any
genuine dispute of material fact, (2) DOL “relied on false and misleading factual contentions” in
its renewed motion, (3) FOIA Exemption 4 does not trump an agency’s duty to disclose
information under the APA, (4) DOL failed to timely determine whether this email was properly
withheld, (5) DOL cannot carry its burden of showing that Exemption 4 applies, (6) the Court
must disclose the emails received as a result of ex parte communications, (7) a declaration
submitted by Mr. Huber in support of DOL’s motion should not be given credence, and (8) DOL
has failed to establish that it had released reasonably segregable information from the Huber
email. Pl.’s Opp’n to DOL’s Renewed Mot. for Summ. J. at 6–37, ECF No. 46. Because the
Court finds that the attorney–client privilege does not protect the Huber email, DOL’s renewed
motion for summary judgment is denied. 7
As the Court explained in its prior Opinion, FOIA Exemption 4 exempts “trade secrets
and commercial or financial information obtained from a person and privileged or confidential”
6

DOL also argues that this Court should not permit Mr. Jordan to use a FOIA lawsuit as
an end-run around the Office of Administrative Law Judges’ determination that the disputed
documents were protected by privilege. See Def.’s MSJ Mem. at 3 n.1. Though this Court is
sympathetic to DOL’s position, DOL has failed to provide a legal basis to avoid such a situation.
For example, DOL has not argued—and certainly has not demonstrated—that collateral estoppel
applies to any determination made by the ALJ. Likewise, DOL has failed to provide any
authority supporting the proposition that the Court can ignore the requirements of FOIA based on
such equitable considerations.
7

Because the Court finds that the attorney–client privilege does not protect the Huber
email, the Court does not address Mr. Jordan’s other arguments for release of that record.
Moreover, the Court does not address arguments for reconsideration of the Court’s prior Opinion
that appear in Mr. Jordan’s opposition to DOL’s motion for summary judgment. As the Court
explained in detail above, Mr. Jordan has not shown that reconsideration is warranted.

Page 26 of 32
App. 54
matters from disclosure. 5 U.S.C. § 552(b)(4). In non-trade secret cases, the “agency must
establish that the withheld records are ‘(1) commercial or financial, (2) obtained from a person,
and (3) privileged or confidential.’” Pub. Citizen v. Dep’t of Health & Human Servs., 975 F.
Supp. 2d 81, 98 (D.D.C. 2013) (citing Pub. Citizen Health Research Grp. v. FDA, 704 F. 2d
1280, 1290 (D.C. Cir. 1983)). In this Court’s prior Opinion, it determined that the information in
the Huber email is “commercial” or “financial” and that the information in question was obtained
from a person. See Jordan, 273 F. Supp. 3d at 230–31. The Court advised, however, that it
“require[d] further briefing focusing specifically on the DOL’s justification to withhold the
Huber email.” Specifically, the matter of whether the Huber email contains privileged or
confidential information remains.
DOL’s renewed motion for summary judgment argues that information in the Huber
email is protected by attorney–client privilege because “the Huber email was specifically
conveyed to DynCorp’s in-house attorney, Mr. Bellomy, for his review so that he would be able
to form a legal basis for advising on and advocating for DynCorp’s position regarding the
business contract.” Def.’s MSJ Mem. at 8. DOL includes a declaration from Mr. Huber. See
Decl. of Robert A. Huber (“Huber Decl.”), ECF No. 41-1. That declaration explains that Mr.
Huber worked as Senior Contracts Director for DynCorp at the time of the email exchange. Id. ¶
2. According to Mr. Huber, the DynCorp emails pertained to a situation in which the State
Department had “short paid invoices [DynCorp] submitted for processing.” Id. ¶ 3. Mr. Huber
asserts that he copied Mr. Bellomy on the Huber email, which was specifically addressed to
Darin Powers, “purposefully” to “keep [Mr. Bellomy] apprised of the [company’s] ongoing
discussions as they related to the short paid invoices.” Id. ¶ 4. Mr. Huber contends that he knew
from his experience at the company that “[DynCorp’s] in-house lawyers would be involved in

Page 27 of 32
App. 55
any potential claims process with the State Department and, therefore, Mr. Bellomy needed to
have a complete understanding of the facts underlying any future claim in order to form a legal
basis for advocating [DynCorp’s] position with the State Department.” Id.
The Court disagrees with DOL and concludes that the Huber email is not protected by
attorney–client privilege. As the Court explained in its prior Opinion, attorney–client privilege
protects “confidential disclosures between an attorney and [its] client regarding factual and legal
matters.” Jordan, 273 F. Supp. 3d at 231 (citing Fisher v. United States, 425 U.S. 391, 403
(1976)). But, “the mere fact that an attorney is listed as a recipient . . . does not make a
document protected under [attorney–client] privilege.” Jordan, 273 F. Supp. 3d at 231 (quoting
Vento v. IRS, 714 F. Supp. 2d 137, 151 (D.D.C. 2010)); see also Neuder v. Battelle Pacific Nw.
Nat’l Lab., 194 F.R.D. 289, 293 (D.D.C. 2000) (“[A] corporate client should not be allowed to
conceal a fact by disclosing it to the corporate attorney.”). Rather, as the D.C. Circuit explained
in In re Kellogg Brown & Root, Inc., 756 F.3d 754 (D.C. Cir. 2014), “the privilege applies to a
confidential communication between an attorney and client if that communication was made for
the purpose of obtaining or providing legal advice to the client.” Id. at 757. The Circuit has
clarified that the proper inquiry for district courts is “[w]as obtaining or providing legal advice a
primary purpose of the communication, meaning one of the significant purposes of the
communication?” Id. at 760. Importantly, “the attorney–client privilege ‘exists to protect not
only the giving of professional advice to those who can act on it but also the giving of
information to the lawyer to enable him to give sound and informed advice.” Id. at 757 (quoting
Upjohn Co. v. United States, 449 U.S. 383, 390 (1981)). Equally important, though, is the fact
that the D.C. Circuit has emphasized that the “attorney-client privilege must be strictly confined

Page 28 of 32
App. 56
within the narrowest possible limits consistent with the logic of its principle.” In re Lindsey, 158
F.3d 1263, 1272 (D.C. Cir. 1998) (quoting In re Sealed Case, 676 F.2d 793, 807 n.44).
Here, DOL seems to argue that the Huber email qualifies for protection under the
attorney–client privilege because it was sent as part of DynCorp’s broader efforts to address a
legal issue and because it was sent to an in-house attorney to provide him “with a complete
understanding of the facts relevant to the matter that was being discussed in the email.” Def.’s
MSJ Mem. at 10. The Court disagrees and concludes that, contrary to DOL’s contentions, the
Huber email is not protected by attorney–client privilege and must be produced. 8
Several factors buttress this conclusion. First, it is difficult to say, under the
circumstances of this case, that one of the primary purposes of the Huber email was to obtain
legal advice. The email is specifically directed to another person—a non-attorney—and the
email specifically (and only) seeks information from that person. It is not at all apparent from
DOL’s submissions how Mr. Huber’s request that Mr. Powers provide certain information might
in any way shape Mr. Bellomy’s legal advice on the business contract or any other legal matter.
DOL’s contention that some broader legal problem existed in the background is insufficient to

8

Although Mr. Jordan did not move for summary judgment, the Court concludes that
sua sponte entry of summary judgment in his favor with regard to the Huber email is warranted.
“[D]istrict courts are widely acknowledged to possess the power to enter summary judgments
sua sponte, so long as the losing party was on notice that [it] had to come forward with all of [its]
evidence.” Bayala v. U.S. Dep’t of Homeland Security, 264 F. Supp. 3d 165, 177 (D.D.C. 2017)
(first alteration in original) (quoting Celotex Corp. v. Catrett, 477 U.S. 317, 326 (1986)). Here,
DOL has apparently brought forward all of the evidence that it has. Indeed, DOL has had two
opportunities to convince this Court that the disputed document is covered by a FOIA
exemption. Having rejected DOL’s arguments, no issues remain for this Court to resolve. See
Shipman v. Nat’ll R.R. Passenger Corp., 76 F. Supp. 3d 173, 181–84 (D.D.C. 2014) (concluding
that an agency’s claimed FOIA exemptions did not apply and granting sua sponte summary
judgment in favor of the FOIA requestor). Accordingly, the Court orders DOL to release the
Huber email to Mr. Jordan.

Page 29 of 32
App. 57
connect this specific communication to that legal problem or to any prospective legal problem. 9
Second and relatedly, the Huber email does not appear to contain any factual information on
which Mr. Bellomy might rely to form a legal judgment. Rather, it appears to contain a discrete
request—directed to one person—that exposes little to nothing about the factual circumstances
underlying the problem of the “short paid invoices” or any other legal issue. Third, protection of
this document does little to promote the purpose of the attorney–client privilege, which is “to
encourage ‘full and frank communication between attorneys and their clients and thereby
promote broader public interests in the observance of law and the administrative of justice.’”
Swidler & Berlin v. United States, 524 U.S. 399, 403 (1998) (quoting Upjohn, 449 U.S. at 389).
Fourth, the Huber email’s topic and distribution list appears to be nearly identical to that of the
final email in the chain, which was not withheld on the basis of attorney–client privilege. The
only difference between the two emails is that the Huber email was copied to an attorney while
the final email in the chain was not. As set forth above, simply copying an attorney on a
communication does not make that communication privileged. In sum, DOL’s arguments that
the attorney–client privilege applies to the Huber email are unavailing. DOL’s renewed motion
for summary judgment is denied, and DOL is ordered to release the Huber email.

9

DOL argues that Mr. Huber copied in-house attorney Mr. Bellomy on the email to keep
him apprised of business communications because, if a legal dispute arose, Mr. Bellomy would
need to “have a complete understanding of the facts underlying any future claim in order to form
a legal basis for advocating [DynCorp’s] position.” Def.’s MSJ Mem. at 8–9 (quoting Huber
Decl. ¶ 4). But this concept is virtually limitless—nearly all business communications have
some vague connection to a possible, future legal dispute. Sending all business-related
communications to an attorney does not render those communications protected under attorney–
client privilege.

Page 31 of 32
App. 58
In assessing whether a protective order is appropriate and—if so, how to limit the conditions,
time, place, or topics of discovery—the Court is to “undertake an individualized balancing of the
many interests that may be present in a particular case.” Id. (quoting Diamond Ventures, LLC v.
Barreto, 452 F.3d 892, 898 (D.C. Cir. 2006)).
Defendant has neglected to satisfy one of the requirements for seeking a protective order.
Namely, Defendant has not “include[d] a certification that the movant has in good faith
conferred or attempted to confer with other affected parties in an effort to resolve the dispute
without court action,” as Rule 26 requires. Fed. R. Civ. P. 26(c). Defendant attached along with
its motion, a series of email communications between counsel. But none of these
communications involve any attempt to narrow the focus of any discovery request or any request
that Mr. Jordan cease filing further motions. See Def.’s Ex. 2, ECF No. 42-2. Because
certification of either good faith or attempts to confer is mandatory, the Court denies Defendant’s
motion without prejudice. However, Defendant may submit a renewed motion for a protective
order, if it wishes and if warranted, that satisfies the requirements of Rule 26(c). But regardless,
given that this Court has now ruled on the appropriateness of DOL’s withholding pursuant to
FOIA of the only two emails at issue in this case, this case is near completion and the necessity
for a protective order is—this Court hopes—greatly diminished.
IV. CONCLUSION
For the foregoing reasons, the Court DENIES Mr. Jordan’s “Motion for Disclosure and
Inclusion of Portions of the Emails and Other Non-Privileged Ex Parte Communications,” Mr.
Jordan’s request that this judge disqualify himself, Mr. Jordan’s motion for reconsideration of an
order granting DOL an extension of time to file a reply, DOL’s renewed motion for summary
judgment, and DOL’s motion for a protective order. DOL must release to Mr. Jordan an

Page 32 of 32
App. 59
unredacted version of the Huber email. An order consistent with this Memorandum Opinion is
separately and contemporaneously issued.
Dated: March 30, 2018

RUDOLPH CONTRERAS
United States District Judge

App. 60
1.

The U.S. Constitution, Article III, in relevant part, provides:

Section 1. The judicial Power of the United States, shall be vested in one supreme
Court, and in such inferior Courts as the Congress may from time to time ordain
and establish. The Judges, both of the supreme and inferior Courts, shall hold their
Offices during good Behaviour, and shall, at stated Times, receive for their Services,
a Compensation, which shall not be diminished during their Continuance in Office.
Section 2. The judicial Power shall extend to all Cases, in Law and Equity, arising
under this Constitution, the Laws of the United States, and Treaties made, or
which shall be made, under their Authority;--to all Cases affecting Ambassadors,
other public Ministers and Consuls;--to all Cases of admiralty and maritime
Jurisdiction;--to Controversies to which the United States shall be a Party;--to
Controversies between two or more States;--between a State and Citizens of another
State;--between Citizens of different States,--between Citizens of the same State
claiming Lands under Grants of different States, and between a State, or the
Citizens thereof, and foreign States, Citizens or Subjects.1
In all Cases affecting Ambassadors, other public Ministers and Consuls, and those
in which a State shall be Party, the supreme Court shall have original Jurisdiction.
In all the other Cases before mentioned, the supreme Court shall have appellate
Jurisdiction, both as to Law and Fact, with such Exceptions, and under such
Regulations as the Congress shall make.
2.

The U.S. Constitution, Article VI, in relevant part, provides:

This Constitution, and the Laws of the United States which shall be made in
Pursuance thereof; and all Treaties made, or which shall be made, under the
Authority of the United States, shall be the supreme Law of the Land; and the
Judges in every State shall be bound thereby, any Thing in the Constitution or
Laws of any State to the Contrary notwithstanding.
The Senators and Representatives before mentioned, and the Members of the
several State Legislatures, and all executive and judicial Officers, both of the
United States and of the several States, shall be bound by Oath or Affirmation, to
support this Constitution; but no religious Test shall ever be required as a
Qualification to any Office or public Trust under the United States.
3.

The U.S. Constitution, Amendment I provides:

Congress shall make no law respecting an establishment of religion, or prohibiting
the free exercise thereof; or abridging the freedom of speech, or of the press; or the
right of the people peaceably to assemble, and to petition the Government for a
redress of grievances.

App. 61
4.

The U.S. Constitution, Amendment V provides:

No person shall be held to answer for a capital, or otherwise infamous crime, unless
on a presentment or indictment of a Grand Jury, except in cases arising in the land
or naval forces, or in the Militia, when in actual service in time of War or public
danger; nor shall any person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without just compensation.
5.

The U.S. Constitution, Amendment X provides:

The powers not delegated to the United States by the Constitution, nor prohibited
by it to the States, are reserved to the States respectively, or to the people.
6.

5 U.S.C. 552(a)(4)(B) provides:

On complaint, the district court of the United States in the district in which the
complainant resides, or has his principal place of business, or in which the agency
records are situated, or in the District of Columbia, has jurisdiction to enjoin the
agency from withholding agency records and to order the production of any agency
records improperly withheld from the complainant. In such a case the court shall
determine the matter de novo, and may examine the contents of such agency
records in camera to determine whether such records or any part thereof shall be
withheld under any of the exemptions set forth in subsection (b) of this section, and
the burden is on the agency to sustain its action. In addition to any other matters to
which a court accords substantial weight, a court shall accord substantial weight to
an affidavit of an agency concerning the agency’s determination as to technical
feasibility under paragraph (2)(C) and subsection (b) and reproducibility under
paragraph (3)(B).
7.

5 U.S.C. 702 (Right of review) in pertinent part provides:

A person suffering legal wrong because of agency action, or adversely affected or
aggrieved by agency action within the meaning of a relevant statute, is entitled to
judicial review thereof.
8.

5 U.S.C. 703 (Form and venue of proceeding) provides:

The form of proceeding for judicial review is the special statutory review proceeding
relevant to the subject matter in a court specified by statute or, in the absence or
inadequacy thereof, any applicable form of legal action, including actions for
declaratory judgments or writs of prohibitory or mandatory injunction or habeas
corpus, in a court of competent jurisdiction. If no special statutory review
proceeding is applicable, the action for judicial review may be brought against the
United States, the agency by its official title, or the appropriate officer. Except to
the extent that prior, adequate, and exclusive opportunity for judicial review is

App. 62
provided by law, agency action is subject to judicial review in civil or criminal
proceedings for judicial enforcement.
9.

5 U.S.C. 704 (Actions reviewable) provides:

Agency action made reviewable by statute and final agency action for which there is
no other adequate remedy in a court are subject to judicial review. A preliminary,
procedural, or intermediate agency action or ruling not directly reviewable is
subject to review on the review of the final agency action. Except as otherwise
expressly required by statute, agency action otherwise final is final for the purposes
of this section whether or not there has been presented or determined an
application for a declaratory order, for any form of reconsideration, or, unless the
agency otherwise requires by rule and provides that the action meanwhile is
inoperative, for an appeal to superior agency authority.

10. 5 U.S.C. 706 (Scope of review) provides:
To the extent necessary to decision and when presented, the reviewing court shall
decide all relevant questions of law, interpret constitutional and statutory
provisions, and determine the meaning or applicability of the terms of an agency
action. The reviewing court shall-(1) compel agency action unlawfully withheld or unreasonably delayed; and
(2) hold unlawful and set aside agency action, findings, and conclusions found to
be-(A) arbitrary, capricious, an abuse of discretion, or otherwise not in accordance
with law;
(B) contrary to constitutional right, power, privilege, or immunity;
(C) in excess of statutory jurisdiction, authority, or limitations, or short of
statutory right;
(D) without observance of procedure required by law;
(E) unsupported by substantial evidence in a case subject to sections 556 and
557 of this title or otherwise reviewed on the record of an agency hearing
provided by statute; or
(F) unwarranted by the facts to the extent that the facts are subject to trial de
novo by the reviewing court.
In making the foregoing determinations, the court shall review the whole record or
those parts of it cited by a party, and due account shall be taken of the rule of
prejudicial error.

/,

App. 63

•

'

Huber, ,lobcrt A.
From:

Huber, Robert A.

Sent

W~dnesdily, July 31. 2013 8:46 AM
PowPrs, Darin

To:

Cc:

Subject:

lmbrie, William; Cox, Brian J: Milchell, Aubrey

R_E: WPS • 11eltt steps & actions

Good! Now we need to focus on what Will needs in the way of ''facts" to
support his meeting. He and I and Brian will be talking ...
Hnb H11IJN
C':m11racts Sr Oarnctor.

[)ynlogistics
nyntorp, lntcrnatlon;il

571 / 2 0206

ro L>er t h11ber(,i>1iyn-lntl.com

From: Powers, Darin
Sent: Wednesday, July 31, 2013 8:42 AM
To: lmbrle, WOiiam
Cc: Huber, Robert A.

Subject: Re: WPS - next steps & actlons
Ves we are In agreement, the Issues are In the outline I presented below.

Darin

Darin Powers
Vice President, tntelllgence &, Security
DynCorp lntematlonal LLC
On Jul 31, 2013, at 8:21, "lmbrie, WIiiiam" <William.lmbrie@dyn-intl.com> wrote:
Bob,
I will come down later today and tc1lk. r think Darin and I are in agreement.

will
From: Huber, Robert A.

Sent: W~tlnesday, July 31, 2013 8:20 AM
To: Powers, Darin

Cc: Jmbrle, William; Huelsbedc, Martha; Co)(, Brian J; Bellomy, Christopher; Mltchell, Aubrey
Subject: RE: WPS - next steps & actions

Darin,

/.

App. 64

/'

Any chance you could talk to Will and get some insight on the
specific issues he thinks he'd like to talk to the CoS about .. . and
also the kind of "factsn he would like to have to get ready (e.g.
stacks of e-mails, position papers, Power Point charts, etc)?
llob lluber
Contr.1cts Sr. Director,
Dynloglstics
DynCorp, International
!>717220206
ro.2!:.!!Ji ,1b<?rc@dyn-intl.rnm

from: Powers, Darin
Sent: Tuesday, July 30, 2013 5:39 PM
To: Coic, Brian J; Huber, Robert A.; Bellomy, Christopher
Cc:: Imbrie, William; HuelsbecJ<. Martha
S1.1bjech WPS - next steps & actions

Redacted

Redacted

App. 65

•

I

I'

App. 66

Redacted

